<html>
<title> - EXTREME WEATHER AND COASTAL FLOODING: WHAT IS HAPPENING NOW WHAT IS THE FUTURE RISK, AND WHAT CAN WE DO ABOUT IT?</title>
<body><pre>[Senate Hearing 115-67]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-67

                 EXTREME WEATHER AND COASTAL FLOODING:
                   WHAT IS HAPPENING NOW, WHAT IS THE
                       FUTURE RISK, AND WHAT CAN
                            WE DO ABOUT IT?

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      
                          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-599 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>                           
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2017...................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Hon. Ted Deutch, U.S. Representative from Florida................     4
Hon. Jeri Muoio, Mayor, West Palm Beach, Florida.................     5
Hon. Paulette Burdick, Mayor, Palm Beach County, Florida.........     7
Ben Kirtman, Ph.D., Director, Cooperative Institute for Marine 
  and Atmospheric Sciences, and Director, Center for 
  Computational Science, Climate, and Environmental Hazards, 
  University of Miami............................................     9
    Prepared statement...........................................    10
Leonard ``Len'' Berry, Ph.D., Emeritus Professor, Geosciences, 
  Florida Atlantic University, and Vice President, Government 
  Programs, Coastal Risk Consulting, LLC.........................    19
    Prepared statement...........................................    20
Carl G. Hedde, CPCU, Head, Risk Accumulation Department, Munich 
  Reinsurance America Inc........................................    35
    Prepared statement...........................................    36
Dr. Jennifer L. Jurado, Chief Resilience Officer and Director, 
  Environmental Planning and Community Resilience Division, 
  Broward County, Florida........................................    39
    Prepared statement...........................................    41

                                Appendix

Response to written questions submitted by Hon. Bill Nelson to:
    Ben Kirtman, Ph.D............................................    55
    Leonard ``Len'' Berry, Ph.D..................................    55
    Carl G. Hedde................................................    56
    Dr. Jennifer Jurado..........................................    57

 
                      EXTREME WEATHER AND COASTAL
                      FLOODING: WHAT IS HAPPENING NOW
                        WHAT IS THE FUTURE RISK,
                      AND WHAT CAN WE DO ABOUT IT?

                              ----------                              


                         MONDAY, APRIL 10, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                               West Palm Beach, FL.
    The Committee met, pursuant to notice, at 1:38 p.m., City 
of West Palm Beach Commission Chambers, 401 Clematis Street, 
West Palm Beach, Florida, Hon. Bill Nelson presiding.
    Present: Senator Nelson [presiding].

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. The meeting of the Senate Committee on 
Commerce, Science, and Transportation will come to order.
    This is a field hearing that is being held by the Senate 
Committee. We have had these kinds of field hearings many times 
before, but on the subject of the day, extreme weather and 
coastal flooding--in other words, sea-level rise and climate 
change--we had an identical hearing 3 years ago in what was 
then ground zero in Miami Beach. And so this record will be 
compiled with the other records of the Committee that are 
occurring in Washington on this topic that we will be hearing 
our witnesses discuss today.
    I want to welcome all of you.
    If we may first have Reverend Gerald Kisner of Tabernacle 
Missionary Baptist Church, if he will give us our Invocation?
    Reverend Kisner. Thank you, Senator and Mayor. Let us pray.
    God of Creation, Creator, again, we come into your divine 
and magnificence presence. First of all, thank you for the 
lifegiving force that you give to each and every one of us. We 
thank you that you are a God of creation. We pray, Lord, even 
as these deliberations and these testimonies are lifted up, 
that all will be done to help maintain our job as the 
custodians of your creation, be with all, that we might do the 
thing that is pleasing in thine sight. And, Lord, as always, we 
will be careful to thank you. We lift up this prayer, the only 
one that matters. Amen.
    Senator Nelson. Thank you, Reverend Kisner.
    Now, we have a treat. For our Pledge of Allegiance, we have 
students from The Greene School, and they are going to come up 
and lead us in the Pledge of Allegiance.
    So, students, if you can come up?
    [Pledge of Allegiance.]
    Senator Nelson. Thank you so much.
    Thank you to everybody for coming. This is an extraordinary 
turnout. There is obviously a lot of interest in the subject 
matter, and we appreciate so much your being here. I want to 
welcome you, as I said, to an official meeting of the Commerce, 
Science, and Transportation Committee. We are doing this 
because we sit at ground zero of the impacts of climate change 
in the U.S.
    While there are still some who continue to deny that 
climate change is real, South Florida offers proof that it is 
real and it is an issue we are going to have to confront in the 
decades ahead. All of us here today know that Florida is 
particularly vulnerable to the effects of climate change. We 
have over 1,200 miles of coastline, more than any other state 
in the continental U.S., and over three-quarters of our state's 
residents live in coastal areas.
    Florida is also quite flat. The highest point in the 
peninsula of Florida is in the center of the state near Lake 
Wales at Bok Tower, and it is only 345 feet high.
    Our communities are already experiencing regular, nuisance 
flooding, especially during the king tides.
    You can see a photograph taken in Miami Beach in 2015. Here 
is a gentleman trying to walk across the street. That is just a 
year and a half ago. Obviously, the floodwater there reaches 
above the curb. And it has gotten so extreme that, if you look 
at this photograph, you will see the sea creatures are showing 
up in bizarre places. Here is an octopus in a parking garage.
    The National Academy of Sciences found that 67 percent of 
the nuisance floods in the U.S. are being driven by human-
caused global sea-level rise. In Miami Beach, tide-induced 
flooding has increased by more than 400 percent in the last 
decade. In southeast Florida, sea-level rise has tripled since 
2006.
    The resulting impacts of coastal flooding, saltwater 
intrusion, storm surge, and land erosion on the Florida coast 
has prompted local governments to act. And that is one of the 
reasons we wanted to bring a field hearing of the Commerce 
Committee here to South Florida, because you will be hearing 
from some of those local governments.
    Here in Palm Beach County, more than 20 acres of beach and 
sand dunes had to be restored following Hurricane Sandy to 
better protect shoreside communities from flooding and severe 
weather.
    Observations such as these--not models, not projections, 
but data--tell us that the average global sea-level rise is 
happening.
    We had a NASA scientist 3 years ago in Miami Beach. You may 
have read about this scientist, because he was the scientist 
who was also an astronaut, and he worked until his last moment 
that he could function, since he had incurable pancreatic 
cancer. He testified 3 years ago that measurements--that is not 
forecast, that is not projections--measurements over the last 
40 years were showing 5 inches to 8 inches in South Florida of 
sea-level rise.
    So the rising ocean temperatures also have been linked to 
increasing hurricane activity and intensity as hurricanes draw 
more energy from the warm water.
    Now you wonder, why is all of this happening? As we emit 
more and more greenhouse gas, specifically carbon dioxide, 
CO<INF>2</INF>, and, in some cases, sulfur dioxide, 
SO<INF>2</INF>, and those gases rise, they create in the upper 
atmosphere the greenhouse effect.
    So if you are familiar with a greenhouse, it has a ceiling 
of glass. It lets in the sunlight but then it traps the heat, 
thus a greenhouse. So too, without the pollutants in the upper 
atmosphere, the sun's rays would come and reflect off of the 
Earth. Some of the heat would be retained but a lot of them 
radiate back out into space. When you put a ceiling up there, a 
ceiling of CO<INF>2</INF> and SO<INF>2</INF>, it acts like a 
greenhouse glass top. It traps the heat from radiating out into 
space and, thus, starts to heat the Earth.
    Two-thirds of the Earth is covered with water. What happens 
to water when it heats up? It expands. And, thus, you see the 
phenomenon that is happening in this country.
    In 2016 alone, there were 15 weather and climate disaster 
events that caused over $1 billion in damage each and resulted 
in 138 deaths across the country. In the first three months of 
this year, there have been five more events with losses 
exceeding $1 billion. These included a flood, a freeze, and 
three severe storms. Five is the largest number of billion-
dollar events for January to March ever recorded.
    Sea-level rise will worsen the issue by creating deeper 
waters near shore, causing higher waves and stronger storm 
surges, especially during hurricanes. This is especially 
concerning considering that 79 percent of Florida's economy is 
generated in coastal communities, and over $130 billion in 
beach real estate is at risk.
    So what can we do about it? Well, first, we need to be 
clear about the facts that are presented to the public and 
fight against the political censorship of our climate 
scientists and their data. If a doctor were barred from using 
the word ``cancer,'' he or she cannot do his job. The same is 
true with scientists and the work that they do to understand 
and educate the public about the Earth's increasing fever.
    Now if you think I am kidding, I want you to know that I 
have gone out to some of the agencies of the Federal Government 
and they are being warned not to use the term ``climate 
change.'' And of course, we have had our own experience here in 
the state of Florida by a similar message being given by the 
Administration in this state to State employees of not using 
the term ``climate change.''
    So at the end of the day, what we have to do is limit the 
greenhouse gas emissions, but we must also create more 
resilient communities. And I want to take the opportunity to 
applaud, to really congratulate and to thank and to applaud 
Palm Beach, Broward, Miami-Dade, and Monroe counties for their 
work on the Southeast Florida Regional Climate Change Compact 
and the City of Punta Gorda on the West Coast and the City of 
Satellite Beach further north on the East Coast for their sea-
level rise adaptation planning and their efforts to become more 
resilient communities.
    And I know that they will keep up this work, and I hope 
that others will follow their lead. And I believe that, at the 
Federal level, we should be providing more tools to these 
communities, not less.
    Now, lest you think that we are all in a period of partisan 
warfare and ideological extremism, which someone could conclude 
that by watching the news, I want you to know that, in the past 
two weeks, I have had two separate conversations with Vice 
President Pence on trying to get a bipartisan infrastructure 
bill going. Of course, the infrastructure that you will hear 
about in Miami Beach and the South Florida compact is extremely 
expensive infrastructure. Miami Beach has already spent 
millions and millions of dollars on the big, big pumps to get 
that water out of the streets when it comes, and to raise the 
level of the streets.
    So, before I introduce the distinguished panel, I want to 
turn to our colleagues here, and I want to hear from them. 
Before I do, let me introduce the elected officials that are 
here in the audience. Hold your applause, please.
    If you all will stand and remain standing, we can recognize 
you all at once.
    County Commissioner Melissa McKinlay of Palm Beach County; 
Martin County Commissioner Doug Smith; Martin County 
Commissioner Ed Fielding; Mayor of the Town of Palm Beach, Gail 
Coniglio--thank you, Mayor; Riviera Beach Councilwoman Dawn 
Pardo; Kim Ciklin, representing County Commissioner Hal 
Valeche; Marian Dozier, representing State Senator Bobby 
Powell; Charity Lewis, representing Congresswoman Lois Frankel; 
Jervonte Edmonds, representing Florida House Representative Al 
Jacquet; West Palm Beach Commissioner Materio; Congressman 
Hastings being represented by Dan Liftman; County Commissioner 
Dave Kerner, I think Danna White is representing him; and Lori 
Berman, our State Representative.
    Now let's welcome them.
    [Applause.]
    Senator Nelson. All right, we have a star-studded panel up 
here. I want you to know that I, as is appropriate and 
respectful, even though I am the only Senator here from the 
Commerce Committee, I invited the entire Congressional 
delegation from South Florida, Republicans and Democrats. And 
for one reason or another, and I make no inferences here--this 
is the Easter recess and Passover starts tonight at sundown. So 
there were a number of folks that just simply could not be 
here.
    But I am very pleased that one of the South Florida 
delegation, Congressman Ted Deutch, is here.
    So, Congressman, your opening comments?

                 STATEMENT OF HON. TED DEUTCH, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Mr. Deutch. Thanks very much, Senator Nelson. I will be 
heading out as soon as this is over to help prepare matzo ball 
soup.
    [Laughter.]
    Mr. Deutch. I really appreciate your holding this hearing 
here in Palm Beach County. Climate change and coastal flooding 
is not a threat to our future in South Florida. It is, as you 
know, a threat today.
    The challenges require immediate action. I want to thank 
you for bringing us together for this critical hearing.
    I also want to thank our witnesses, the private sector, the 
public sector, universities all well represented here and speak 
to the kind of broad-based approach that we are taking here in 
South Florida and nationally.
    Recently, NOAA confirmed that 2016 was the warmest year on 
record, something that we have heard but need to do something 
about.
    Rising sea levels and coastal flooding are forcing real 
estate lenders to consider sea-level rise before issuing 30-
year mortgages. Recent studies have predicted that one million 
Florida homes will be underwater by the year 2100 if we do not 
act. That translates to one in 8 homes, which would take a 
devastating toll on the real estate market, $413 billion in 
losses, if we do not take this seriously.
    In South Florida, we have sea-level rises 10 times the 
global rate. Our porous limestone peninsula fills with water 
that floods homes and spills over seawalls. The king tides, as 
you pointed out, Senator, are bringing floodwaters into our 
streets on sunny days each year.
    And that is why this area is so important. We have to be 
prepared with mitigation plans and investments in adaptation.
    And our local leaders cannot do it alone. Reducing the 
impact of climate change is going to require interaction at a 
serious level between Federal, State, local, and the private 
sectors to rise above those challenges to find common ground.
    That is why, last year, in the House, we founded a 
bipartisan climate solution caucus, which is a first of its 
kind in Congress. We are focused on building our bipartisan 
membership. We have a good showing already from Florida 
Congressman Ros-Lehtinen; Congressman Mast; Congressman Crist; 
Carlos Curbelo, the Congressman from Miami-Dade, who is my Co-
Chair; and there are lots of other Members who are anxiously 
waiting to get on, but can only join when a Democrat and a 
Republican join together.
    In total, we have pulled 38 Members thus far aboard evenly 
split. Seventeen states are represented from diverse regions, 
each reflecting the varied challenges presented by climate 
change.
    This hearing today gives us the opportunity to explore 
these issues in a very public way to make a record, Senator 
Nelson, that we are grateful that you will make and take back 
to Washington to share with your fellow members of the Commerce 
Committee so that, hopefully, we can start to see the sort of 
coming together that is necessary, and that is starting today 
here, thanks to you.
    I appreciate it very much. Thanks, Senator Nelson.
    Senator Nelson. Thank you, Congressman.
    We are here at the kind invitation of the City of Palm 
Beach, and we are so pleased that you could join us, Mayor Jeri 
Muoio.

             STATEMENT OF HON. JERI MUOIO, MAYOR, 
                    WEST PALM BEACH, FLORIDA

    Ms. Muoio. Thank you, Senator. We are so happy to have you 
here in West Palm Beach. I just wanted to say that, in West 
Palm Beach, we say the words ``climate change,'' and we say 
them frequently. We are very active. And I want to thank you 
for being here, first of all, and for holding this hearing.
    I want to welcome our witnesses and, of course, welcome all 
the guests who are here this afternoon who have undertaken 
this.
    In West Palm Beach, it has been very clear to us that 
climate change is occurring. We see it happening.
    And I want to thank you, Senator Nelson, for very clearly 
explaining why we are seeing sea-level rise and why this is 
happening in our coastal regions.
    What I would like to do is just take a couple minutes to 
talk about some of the things that we have done here in West 
Palm Beach.
    We have had a sustainability action plan since 2008, and we 
have been working on that. We have these green bottles here 
that say, ``Rethink Paradise.'' That is the title of our 
sustainability action plan. Penni Redford, who is the Manager 
of the Mayor's Office for Sustainability, she and I had the 
opportunity to go to Paris to attend the COP 21 meetings and to 
urge national leaders to commit to addressing climate change 
and making sure that there is a lowering of our temperature by 
a significant portion.
    We have committed to that. I hope the United States will 
remain committed to it.
    Here in West Palm Beach, we have committed to Net Zero by 
2050. We have already begun to decrease our carbon emissions 
and have made a significant difference in that.
    We have also pledged, by 2025, to turn over our fleet to 
non-fossil-fuel, and we are working on that diligently. It is 
not all that easy because there are not a lot of options out 
there for vehicles.
    We have a storm water master plan that we are working on 
that is going to make a significant difference in how we manage 
storm water. We are already seeing storm water intrusion on 
Flagler Drive, especially during king tide and when we have 
water events, rain events. It really will make a big 
difference.
    Our city has committed to a Global Covenant of Mayors for 
Climate & Energy, the world's largest cooperative effort among 
mayors and city officials.
    So we are very proud of that. And one of the things we are 
most proud of is that we were recently awarded a four-star 
rating by the Star Community Rating System. We are the only 
city in Florida to have achieved a four-star rating, and only a 
handful of cities in the country have achieved a five-star 
rating, so we are working on that diligently.
    We have adopted new green building requirements, because we 
are going to have to address sea-level rise. We are talking 
about freeboarding. We are talking about alternative fuels as 
part of our Energy Secure Cities Coalition. We are moving 
forward with making sure that West Palm Beach is going to be a 
sustainable city as well as a resilient city.
    So thank you for being here. We are very proud and honored 
that you chose to be here, and I am looking forward to hearing 
the testimony this afternoon.
    Thank you.
    Senator Nelson. Thank you, Madam Mayor.
    And we are delighted to be here in Palm Beach County, and 
we have our County Mayor with us, Paulette Burdick, to share 
with us.

          STATEMENT OF HON. PAULETTE BURDICK, MAYOR, 
                   PALM BEACH COUNTY, FLORIDA

    Ms. Burdick. Good afternoon, Senator. Welcome to Palm Beach 
County. As Mayor of the County, we are pleased and honored that 
you chose West Palm Beach, which is one of our cities in Palm 
Beach County, as your location to hold the U.S. Senate Commerce 
Committee field hearing on extreme weather and coastal 
flooding. We are honored to have our Congressman Deutch here. 
And it is always a delight to be with my mayor, Mayor Muoio.
    Climate change has been characterized as the most profound 
threat to our national security and our country's continued 
prosperity. It does create instability in our economy through 
longer droughts and flooding. It harms our citizens' health 
through more frequent heat waves and air pollution. And it 
destabilizes our infrastructure through sea-level rise and 
extreme weather events.
    As these conditions become our Nation's new norm, our 
collective response should be to strengthen critically 
important U.S. climate policies, including the Clean Power Plan 
and vehicle fuel efficiency standards, not proposing budget 
cuts to the EPA and crucial Federal programs like Energy Star.
    The county is committed to improving the resilience of our 
communities both regionally and locally. As a charter member of 
the Southeast Florida Regional Climate Change Compact, a 
regional collaborative model to reduce carbon emissions, adapt 
to climate impacts, and build resilient communities, we strive 
to address the impacts of climate change, including sea-level 
rise, through regional collaboration and local action.
    In the past 8 years, the climate compact has fostered 
close, cooperative relationships with Palm Beach, Broward, 
Miami-Dade, and Monroe counties, and our local municipalities.
    Locally, Palm Beach County continues its effort to adapt to 
and mitigate the impacts of climate change. We are 
incorporating resilience and sustainability measures in our 
capital projects, curbing greenhouse gases through reducing 
soft costs for solar heating systems and tracking energy use, 
and by strengthening relationships with businesses and 
addressing economic benefits of resiliency in our community.
    Politicizing science erodes one of the main hallmarks of 
our great country, the celebration of our ingenuity and the 
ability to transform insurmountable hurdles into advantageous 
opportunities. We urge the Senate Commerce Committee and its 
counterpart in the House to increase rather than eliminate 
local support, regional and national efforts to protect our 
businesses and our citizens from climate change, which 
continues to be documented and proven by the international 
community of scientists.
    I call upon you to continue to provide the critical 
leadership needed on the global climate stage so the gains 
achieved over the past few years are not lost.
    And on behalf of all of us here in Florida, thank you for 
your leadership and being with us here today.
    Senator Nelson. Thank you, Mayor.
    Okay, our distinguished panel, your written remarks will be 
included as part of the official record. What I would like you 
to do is to summarize your remarks and try to keep it within 
less than 5 minutes.
    Dr. Ben Kirtman is the Director of the Center for 
Computational Science, and Climate and Environmental Hazards at 
the University of Miami--this is Dr. Kirtman over here--as well 
as the Director of the National Oceanographic and Atmospheric 
Administration's Cooperative Institute for Marine and 
Atmospheric Sciences. Dr. Kirtman is a professor in the 
Division of Meteorology and Physical Oceanography at UM's 
Rosenstiel School for Marine and Atmospheric Science, and is 
the Executive Editor of the scientific journal Climate 
Dynamics.
    How do you have time for all this?
    [Laughter.]
    Senator Nelson. His research focuses on predicting climate 
change in the short and long term, and how much of that change 
can be attributed to humans.
    Then we are going to hear from Dr. Leonard Berry. He is 
Professor Emeritus of Geosciences at Florida Atlantic, and he 
serves as a consultant to Coastal Risk Consulting, a Florida 
company that assesses climate risk to properties. He is also 
providing consulting services to communities who wish to 
relocate power infrastructure to avoid those risks.
    Mr. Carl Hedde is the Senior Vice President and the Head of 
Risk Accumulation for Munich Reinsurance Company of America. 
Mr. Hedde oversees corporate accumulation issues, including use 
of catastrophic risk models, climate catastrophic risk 
consulting services, and portfolio management and optimization. 
Additionally, he manages a group of scientists that provide 
expert and research capabilities to Munich Reinsurance Company 
of America and its clients.
    By the way, if you are confused, you do not hear a lot of 
insurance companies come out and chronicle this, though 
reinsurance companies do, because they see the long-term risk 
whereas the insurance companies are usually just setting their 
rates on the basis of 1 to 3 years in the future, not the 
reinsurance companies. That is why we have Mr. Hedde here 
today.
    Then, Dr. Jennifer Jurado, she is the Chief Resiliency 
Officer as well as the Director of the Environmental Planning 
and Community Resilience Division of Broward County. Dr. Jurado 
serves as the county's primary representative coordinating with 
regency and agency partners--and we want you to tell us about 
the South Florida compact--and public and private stakeholders 
to advance the planning and infrastructure investments.
    Dr. Jurado was on the President's Task Force on Climate 
Preparedness and was recognized in 2013 by the White House as a 
Champion of Change for her leadership on climate resilience. 
She was integral in drafting the compact, which she is going to 
tell us about.
    So thank you all for being here. Let's just start in the 
order that I introduced you.
    Dr. Kirtman.

           STATEMENT OF BEN KIRTMAN, Ph.D., DIRECTOR,

        COOPERATIVE INSTITUTE FOR MARINE AND ATMOSPHERIC

            SCIENCES, AND DIRECTOR OF THE CENTER FOR

 COMPUTATIONAL SCIENCE, CLIMATE, AND ENVIRONMENTAL HAZARDS AT 
                    THE UNIVERSITY OF MIAMI

    Dr. Kirtman. Senator Nelson, Congressman Deutch, 
distinguished Mayors, distinguished elected officials, thank 
you for this opportunity to share what I think are really 
important problems in climate change and climate variability. 
As a Floridian, I am particularly grateful for the Committee's 
focus on this matter as it hits very close to home for many of 
us.
    First of all, as a scientist, my goal is to understand how 
the Earth system works and how to predict its evolution into 
the future. As a weather and climate scientist, it is my hope 
that policymakers will utilize the best available science to 
save lives, protect property, and enable economic opportunity, 
and secure our national defense.
    What I want to do today is I want to tell you a little bit 
about the best available science that we have on climate change 
and how that affects Florida regionally. As part of that 
process, I want to have a mantra that sits in the background, 
and this is from the Intergovernmental Panel on Climate Change. 
That mantra is ``multiple lines of evidence.''
    So I am going to show you a few figures, and they are going 
to be very overwhelming. That is on purpose. There are going to 
be tons and tons of curves, and I am not going to explain each 
individual curve. But I want to hit hard on this mantra of 
multiple lines of evidence.
    Let's first start out with the fact that Senator Nelson has 
already given us, and that is that CO<INF>2</INF> and methane 
affect global atmospheric temperatures. That is a fact. Over 
the last 800,000 years, up until about 3,000 years, 
CO<INF>2</INF> levels have oscillated between 180 parts per 
million and 280 parts per million--180 to 280. Those 
oscillations took on the order of 10,000 to 40,000 years.
    The current levels of CO<INF>2</INF> are 405. That jump 
from 280 to 405 took less than 200 years--less than 200 years. 
Something is out of balance.
    What I show here on the panel is our instrument record, our 
modern instrument record, and you can see there are a number of 
different fields there. They have different curves and 
different data sets. These are disparate scientists using 
different instruments to collect this data and to analyze the 
data. And it is different fields. One might be Arctic sea ice 
in the summer. One might be sea surface temperatures. One is 
sea-level rise.
    Multiple lines of evidence all point to the same thing, all 
point to the same thing, that our climate system is out of 
balance, and it has warmed, 100 percent confidence, since the 
1950s.
    I want to pause a moment to talk about sea level because 
this is important. This is really important. That top panel 
shows sea-level rise estimates from the previous 2,000 years up 
until about 1900, or maybe 1700--2,000 years.
    What you notice in that top panel is there is no change in 
sea level. The sea level is remarkably stable. When you look 
more recently in the other two panels to the left, what do you 
see? You see over the modern instrument record, a rapid 
increase in sea level globally. That is due to human 
activities.
    The panel on the right, that is flooding in Miami Beach. 
These are based on insurance claims and anecdotal evidence but 
also data. What you can see is the rate of flooding has 
steadily increased over that record.
    So these are clear, unequivocal indicators, 95 percent to 
100 percent certainty--scientists are always a little bit 
conservative--95 percent to 100 percent certainty that the 
climate system has warmed and the sea level has risen since the 
1950s, and that is due to human activities.
    How do we know it is due to human activities? You can 
analyze the data very carefully. What this is is a very, very 
careful analysis of the global temperature records. And you can 
see we can contribute it to El Nino, which we just had. We can 
attribute it to sunspot cycles. We can attribute it to all 
kinds of things. Volcanoes.
    The one thing that jumps off the page is the one in the 
black oval. That is human activity. The bulk of the temperature 
rise we have seen since the 1950s is due to human activities.
    We do the same thing with our model that is in the right-
side panel. We take out the volcanoes. We take out the 
CO<INF>2</INF>. We are unable to reproduce the temperature 
record in the 20th century without the anthropogenic greenhouse 
gases.
    Again, multiple lines of evidence all pointing to the same 
thing.
    The last slide, the regional change is difficult, it is a 
very difficult problem, and that is because the natural 
variability is large. It requires very careful calculations. 
But the panels on the right are showing the near-term future. 
We have every reason to believe that the current trends that we 
are seeing are going to continue.
    In fact, there is compounding evidence that the current 
trends are going to continue. There is no credible science 
whatsoever that the trends we see today are going to reverse 
themselves.
    So even if you want to be skeptical about human activities 
affecting climate change, for the next 25 to 50 years, there is 
no evidence that those trends will reverse.
    Thank you very much.
    [The prepared statement of Dr. Kirtman follows:]

  Prepared Statement of Ben Kirtman, Ph.D., Professor, University of 
Miami--Rosenstiel School for Marine and Atmospheric Science; Director, 
   Cooperative Institute for Marine and Atmospheric Studies; Program 
      Director for Climate and Environmental Hazards, Center for 
                         Computational Science
    Mr. Chairman, Ranking Member Nelson, distinguished members of the 
U.S. Senate Committee on Commerce, Science, and Transportation and 
members of the House of Representatives, thank you for this opportunity 
to come before you today and share my thoughts regarding climate 
variability and climate change, and how this affects Florida.
    I've been a climate scientist for about 25 years, having received 
my Ph.D. in 1992. Ten years ago, I joined the University of Miami 
Rosenstiel School of Marine and Atmospheric Science as a Professor of 
meteorology and physical oceanography and in 2016 was appointed as the 
Director of the Cooperative Institute of Marine and Atmospheric 
Studies. I use complex earth system models and the most sophisticated 
supercomputers throughout the United States to investigate the 
predictability of the climate system on time scales from days-to-
decades.
    I served as a coordinating lead author for the Intergovernmental 
Panel on Climate Change (IPCC) working group one--the Scientific Basis 
and have chaired several national and international scientific panels 
and working groups. I'm an Executive Editor of Climate Dynamics and an 
Associate Editor of the American Geophysical Union Journal of 
Geophysical Research (Atmospheres). I have received research grants 
from the National Science Foundation, Department of Energy, NOAA, NASA, 
and the Office of Naval Research, and I lead the North American Multi-
Model Ensemble Prediction (NMME) Experiment. I'm the author and/or 
coauthor of over 120 peer reviewed papers focused on understanding and 
predicting climate variability on time scales from days to decades.
    And as a Floridian, I am grateful for the Committee's focus on a 
matter that hits very close to home for many of us in this room.
    First and foremost, as a scientist my goal is to understand how the 
earth system works and how to predict its evolution into the future. As 
weather and climate scientists, it is our hope that policy makers will 
be able to utilize the best available science to help: (1) save lives, 
(2) protect property, (3) enable economic opportunity and (4) secure 
our national defense.
    My testimony will summarize the current state-of-the-science in 
climate variability and change on a global scale, and how these global 
drivers affect the local Florida environment. The over-arching key 
points are summarized below, and the remaining text goes into further 
detail with data and figures. Much of the material included here is 
from the Intergovernmental Panel on Climate Change (IPCC) 5th 
Assessment Report (AR5, Stocker et al., 2013; Kirtman et al., 2013), 
which assesses our current scientific understanding of climate change. 
It is important to understand that any robust conclusions in the IPCC 
assessment report require: (i) multiple disparate lines of evidence and 
(ii) quantitative estimates of uncertainty. This assessment process 
summarizes the best available science.
The Science: Global Climate Drivers of Regional Change
    (i) CO<INF>2</INF> levels in the atmosphere affect global 
temperatures.
    (ii) During the last 800,000 years (excluding the modern era; 1900-
present), CO<INF>2</INF> levels in the atmosphere have ranged from 
about 180 parts per million by volume (ppmv) to about 280 ppmv. The 
oscillations were between 180 and 280 ppmv; these changes took 
approximately 10,000 to 40,000 years to occur. Current CO<INF>2</INF> 
levels are about 405 ppmv and the increase from 280 to 405 ppmv took 
less than 150 years (see Fig. 1). This rapid increase in CO<INF>2</INF> 
is unprecedented in any observational estimate.
    (iii) Since the 1950s the climate system has warmed and it is 100 
percent unequivocal (see Fig. 2). There are robust multiple lines of 
evidence--multiple studies that involve different observational 
instruments that measure different components of the climate system--
that support this conclusion.
    (iv) The bulk of the warming since the 1950s is extremely likely 
(95-100 percent certainty) due to human activities (i.e., increases in 
CO<INF>2</INF> levels associated with the consumption of fossil fuels; 
see Fig. 3 and Fig. 4).
    (v) Given its importance in Florida, sea level merits special 
attention. Paleo sea level data from the last 3000 years, until 
approximately 1900, has been remarkably stable; there has been little 
change in the global mean. However, since about 1900 global mean sea 
level has steadily risen consistent with the warming seen (Fig. 5).
    (vi) Regional climate changes are more difficult to assess. This is 
because the natural variability tends to be larger on the local scale, 
and this makes it more challenging to isolate the anthropogenic signal. 
Nevertheless, regional changes in temperature through out much of the 
U.S. show a pronounced warming trend (see Fig. 6).
    (vii) There is evidence that at regional scales along the eastern 
U.S., and in Florida in particular, the sea level rise is accelerating 
(see Fig. 7).
    (viii) There is no compelling scientific evidence that any of the 
trends that we currently see are going to reverse themselves. There is, 
however, compelling evidence that the current trends will continue for 
at least the next 25 years, and there is even some evidence that 
particular trends may accelerate. Even if one is skeptical that human 
activities are the cause of these trends, there is a clear local need 
to protect lives and property, and ensure economic opportunity in 
response to changes we see today. Robust, well-calibrated, 
scientifically based predictions of the next 25 years and beyond (see 
Fig. 8) are the first step in developing effective adaptation 
strategies and to capitalize on the associated economic opportunities.
    (ix) Florida is well positioned to respond to the challenges and 
opportunities associated with climate change. The academic community 
has established the Florida Climate Institute (FCI; https://
floridaclimateinstitute.org). The Florida Climate Institute (FCI) 
fosters interdisciplinary research, education, and extension to: 
Improve our understanding and the impact of climate variability, 
climate change, and sea level rise on the economy, ecosystems, and 
human-built systems; Develop technologies and information for creating 
opportunities and policies that reduce economic and environmental 
risks; and Engage society in research, extension and education programs 
for enhancing adaptive capacity and responses to associated climatic 
risks. We collaborate with the local, state, and Federal Government to 
address our most pressing adaptation problems.
    (x) The process of challenging the conventional wisdom is a 
critical component of how robust science progresses. We should always 
be respectful of differing perspectives, accounting for new information 
and ideas and then test them through the scientific method. This is how 
science works, this is how we find fact. When it comes to policy, I 
would just ask that policy makers take into account the best available 
science. When it comes to climate change, the scientific consensus is 
not cavalier, it is prudent and conservative, and is the best available 
science.
Basic Global Climate Change
    Figure 1 shows 800,000 years of CO<INF>2</INF> and temperature from 
ice core records from Vostok, Antarctica. The temperature near the 
South Pole has varied by as much as 20+F (11+C) during the past 800,000 
years. The cyclical pattern of temperature variations constitutes the 
ice age/interglacial cycles. During these cycles, changes in carbon 
dioxide concentrations (in purple) track closely with changes in 
temperature (in blue), with CO<INF>2</INF> lagging behind temperature 
changes. Because it takes a while for snow to compress into ice, ice 
core data are not yet available much beyond the 18th century at most 
locations. However, atmospheric carbon dioxide levels, as measured in 
air, are higher today than at any time during the past 800,000 years. 
Source: National Research Council (https://nas-sites.org/
americasclimatechoices/more
resources-on-climate-change/climate-change-lines-of-evidence-booklet/
evidence-impacts-andchoices-figure-gallery/figure-14/).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Source 1 for top image: Luthi, D., M. Le Floch, B. Bereiter, T. 
Blunier, J.-M. Barnola, U. Siegenthaler, D. Raynaud, J. Jouzel, H. 
Fischer, K. Kawamura, and T. F. Stocker. 2008. High-resolution carbon 
dioxide concentration record 650,000-800,000 years before present. 
Nature 453(7193):379-382, doi: 10.1038/nature06949.

    Source 2 for bottom image: Jouzel, J., V. Masson-Delmotte, O. 
Cattani, G. Dreyfus, S. Falourd, G. Hoffmann, B. Minster, J. Nouet, J. 
M. Barnola, J. Chappellaz, H. Fischer, J. C. Gallet, S. Johnson, M. 
Leuenberger, L. Loulergue, D. Luethi, H. Oerter, F. Parrenin, G. 
Raisbeck, D. Raynaud, A. Schilt, J. Schwander, E. Selmo, R. Souchez, R. 
Spahni, B. Stauffer, J. P. Steffensen, B. Stenni, T. F. Stocker, J. L. 
Tison, M. Werner, and E. W. Wolff. 2007. Orbital and millennial 
Antarctic climate variability over the past 800,000 years. Science 
317(5839):793-797.

    One of the top level conclusions of the IPCC AR5 is that the since 
the 19th century the climate system has warmed. This conclusion is 
based on multiple lines of evidence from many different data sets that 
have been collected using different instruments. All of these data 
sets, whether they are ocean, land, or sea-ice measurements point to 
one unequivocal conclusion--the world has warmed. Figure 2 summarizes 
the results from many several of these different data sets. For 
example, there are four different data sets used to estimate global 
land surface temperature changes, and they all indicate a warming of 
about 2.5+F. There are six different data set used to estimate global 
sea level, and again they all agree in the upward trend. Summer arctic 
sea-ice extent is estimated using six different data sets, and they all 
indicate the same downward trend.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 2: Multiple independent indicators of a changing global 
climate. Each line represents an independently derived estimate of 
change in the climate element. In each panel all data sets have been 
normalized to a common period of record. Figure take from IPCC AR5 and 
a full detailing of the data sources is given in Stocker et al., (2013, 
supplementary material).

    Perhaps the most important question that needs to be addressed is 
how do we know the trends seen in Fig. 2 are due to human activities. 
There are two typical approaches. The first is referred to detection 
and attribution studies (Bindoff et al., 2013). Figure 3 summarize a 
classic detection and attribution study based on observational 
estimates of global mean surface temperatures. The time series analysis 
separates the global mean temperature changes due to: El Nino (panel 
b), volcanoes (panel c), solar output (panel d), and other modes of 
climate variability like the AMO (panel f). The global mean temperature 
changes associated with the changes in greenhouse gases such a 
CO<INF>2</INF> are shown in panel e, and demonstrate that it is 
extremely likely (95-100 percent) that the bulk of the warming since 
the 1950s is due to human activities.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 3: (Top) The variations of the observed global mean surface 
temperature (GMST) anomaly from Hadley Centre/Climatic Research Unit 
gridded surface temperature data set version 3 (HadCRUT3, black line) 
and the best multivariate fits using the method of Lean (red line), 
Lockwood (pink line), Folland (green line) and Kaufmann (blue line). 
(Below) The contributions to the fit from (a) El Nino-Southern 
Oscillation (ENSO), (b) volcanoes, (c) solar forcing, (d) anthropogenic 
forcing and (e) other factors (Atlantic Multi-decadal Oscillation (AMO) 
for Folland and a 17.5-year cycle, semi-annual oscillation (SAO), and 
Arctic Oscillation (AO) from Lean). (From Lockwood (2008), Lean and 
Rind (2009), Folland et al. (2013 ) and Kaufmann et al. (2011), as 
summarized in Imbers et al. (2013).) See Figure 10.6 in Bindoff et al. 
(2013) for references and details.

    The second approach for attributing the observed warming to human 
activities is based on climate model simulations. Again, as with the 
data analysis shown in Fig. 3, the climate models used in the 
assessment of the climate of the 20th century have been developed and 
validated by different modeling centers in different countries around 
the world--multiple lines of evidence supporting the conclusion. The 
approach is to simulate the climate of the 20th century with and 
without the anthropogenic changes in CO<INF>2</INF>. The results and 
then be compared with the observed temperature record. An example of 
this for global mean temperature is shown in Fig. 4. Again, the results 
point to the same conclusion--the bulk of the warming since the 1950s 
is due to human activities.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 5: Comparison of observed (black curve) and multi-model 
simulated global mean temperature with natural and anthropogenic 
forcing (pink swath) and just natural forcing (blue swath). The width 
of the swaths correspond to the 5 percent-95 percent range from the 
multi-model ensemble simulations. Figure adapted from Stocker et al., 
2013.

    Sea level rise associated with climate change is of particular 
importance to Florida. Here we show results from Church et al., (2013) 
which includes a detailed analysis of paleo and historical estimates of 
global sea level and more recent modern instrument records. The results 
further underscore the unequivocal conclusion that human activities are 
leading to profound changes in the climate system.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 5: a) Paleo sea level data for the last 3,000 years from 
Northern and Southern Hemisphere sites. The effects of glacial 
isostatic adjustment (GIA) have been removed from these records. Light 
green = Iceland (Gehrels et al., 2006), purple = Nova Scotia (Gehrels 
et al., 2005), bright blue = Connecticut (Donnelly et al., 2004), blue 
= Nova Scotia (Gehrels et al., 2005), red = United Kingdom (Gehrels et 
al., 2011), green = North Carolina (Kemp et al., 2011), brown = New 
Zealand (Gehrels et al., 2008), grey = mid-Pacific Ocean (Woodroffe et 
al., 2012). (b) Paleo sea level data from salt marshes since 1700 from 
Northern and Southern Hemisphere sites compared to sea level 
reconstruction from tide gauges (blue time series with uncertainty) 
(Jevrejeva et al., 2008). The effects of GIA have been removed from 
these records by subtracting the long-term trend (Gehrels and 
Woodworth, 2013). Ordinate axis on the left corresponds to the paleo 
sea level data. Ordinate axis on the right corresponds to tide gauge 
data. Green and light green = North Carolina (Kemp et al., 2011), 
orange = Iceland (Gehrels et al., 2006), purple = New Zealand (Gehrels 
et al., 2008), dark green = Tasmania (Gehrels et al., 2012), brown = 
Nova Scotia (Gehrels et al., 2005). (c) Yearly average global mean sea 
level (GMSL) reconstructed from tide gauges by three different 
approaches. Orange from Church and White (2011), blue from Jevrejeva et 
al., (2008), green from Ray and Douglas (2011) (see Section 3.7). (d) 
Altimetry data sets from ve groups (University of Colorado (CU), 
National Oceanic and Atmospheric Administration (NOAA), Goddard Space 
Flight Centre (GSFC), Archiving, Validation and Interpretation of 
Satellite Oceanographic (AVISO), Commonwealth Scientific and Industrial 
Research Organisation (CSIRO)) with mean of the ve shown as bright blue 
line (see Section 3.7). (e) Comparison of the paleo data from salt 
marshes (purple symbols, from (b)), with tide gauge and altimetry data 
sets (same line colours as in (c) and (d)). All paleo data were shifted 
by mean of 1700-1850 derived from the Sand Point, North Carolina data. 
The Jevrejeva et al., (2008) tide gauge data were shifted by their mean 
for 1700-1850; other two tide gauge data sets were shifted by the same 
amount. The altimeter time series has been shifted vertically upwards 
so that their mean value over the 1993-2007 period aligns with the mean 
value of the average of all three tide gauge time series over the same 
period. References and details in Church et al., 2013.
Regional Climate Change
    Regional climate changes are more difficult to assess. This is 
because the natural variability tends to be larger on the local scale, 
and this makes it more challenging to isolate the anthropogenic signal. 
Nevertheless, regional changes in temperature thought much of the U.S. 
show a pronounced warming trend (see Fig. 6).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 6: The colors on the map show temperature changes over the 
past 22 years (1991-2012) compared to the 1901-1960 average, and 
compared to the 1951-1980 average for Alaska and Hawai`i. The bars on 
the graphs show the average temperature changes by decade for 1901-2012 
(relative to the 1901-1960 average) for each region. The far right bar 
in each graph (2000s decade) includes 2011 and 2012. The period from 
2001 to 2012 was warmer than any previous decade in every region. 
(Figure source: NOAA NCDC / CICS-NC). Figure taken from Melillo et al., 
2014.
    There is evidence that sea level rise along the eastern seaboard of 
the U.S. is accelerating (Fig. 7 below). The factors for the 
acceleration are not well understood but could be due to changes in 
ocean circulation associated with global warming, Greenland ice melt 
also associated with global warming or even land subsidence.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 7: Flooding frequency in Miami Beach. Figure adapted from 
Wdowinski et al., (2016)

    Finally, there is no compelling scientific evidence that any of the 
trends that we currently see are going to naturally? reverse 
themselves. There is, however, compelling evidence that the current 
trends will continue for at least the next 25 years, and there is even 
some evidence that particular trends (regional sea level) may 
accelerate (see discussion of Fig. 7).
Predicting the Future
    Even if one is skeptical that human activities are the cause of 
these trends, there is a clear local need to protect lives and 
property, and ensure economic opportunity in response to changes we see 
today. Robust well-calibrated scientifically based predictions of the 
next 25-years (and beyond) are the first stop in developing effective 
adaptation strategies and to capitalize on the associated economic 
opportunities.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 8: Projected changes in global temperature and sea level 
from IPCC AR5. See Stocker et al., 2013 for details.
References
    Bindoff, N.L., P.A. Stott, K.M. AchutaRao, M.R. Allen, N. Gillett, 
D. Gutzler, K. Hansingo, G. Hegerl, Y. Hu, S. Jain, I.I. Mokhov, J. 
Overland, J. Perlwitz, R. Sebbari and X. Zhang, 2013: Detection and 
Attribution of Climate Change: from Global to Regional. In: Climate 
Change 2013: The Physical Science Basis. Contribution of Working Group 
I to the Fifth Assessment Report of the Intergovernmental Panel on 
Climate Change [Stocker, T.F., D. Qin, G.-K. Plattner, M. Tignor, S.K. 
Allen, J. Boschung, A. Nauels, Y. Xia, V. Bex and P.M. Midgley (eds.)]. 
Cambridge University Press, Cambridge, United Kingdom and New York, NY, 
USA.
    Church, J.A., P.U. Clark, A. Cazenave, J.M. Gregory, S. Jevrejeva, 
A. Levermann, M.A. Merri eld, G.A. Milne, R.S. Nerem, P.D. Nunn, A.J. 
Payne, W.T. Pfeffer, D. Stammer and A.S. Unnikrishnan, 2013: Sea Level 
Change. In: Climate Change 2013: The Physical Science Basis. 
Contribution of Working Group I to the Fifth Assessment Report of the 
Intergovernmental Panel on Climate Change [Stocker, T.F., D. Qin, G.-K. 
Plattner, M. Tignor, S.K. Allen, J. Boschung, A. Nauels, Y. Xia, V. Bex 
and P.M. Midgley (eds.)]. Cambridge University Press, Cambridge, United 
Kingdom and New York, NY, USA.
    Collins, M., R. Knutti, J. Arblaster, J.-L. Dufresne, T. Fichefet, 
P. Friedlingstein, X. Gao, W.J. Gutowski, T. Johns, G. Krinner, M. 
Shongwe, C. Tebaldi, A.J. Weaver and M. Wehner, 2013: Long-term Climate 
Change: Projections, Commitments and Irreversibility. In: Climate 
Change 2013: The Physical Science Basis. Contribution of Working Group 
I to the Fifth Assessment Report of the Intergovernmental Panel on 
Climate Change [Stocker, T.F., D. Qin, G.-K. Plattner, M. Tignor, S.K. 
Allen, J. Boschung, A. Nauels, Y. Xia, V. Bex and P.M. Midgley (eds.)]. 
Cambridge University Press, Cambridge, United Kingdom and New York, NY, 
USA.
    Kirtman, B., S.B. Power, J.A. Adedoyin, G.J. Boer, R. Bojariu, I. 
Camilloni, F.J. Doblas-Reyes, A.M. Fiore, M. Kimoto, G.A. Meehl, M. 
Prather, A. Sarr, C. Schar, R. Sutton, G.J. van Oldenborgh, G. Vecchi 
and H.J. Wang, 2013: Near-term Climate Change: Projections and 
redictability. In: Climate Change 2013: The Physical Science Basis. 
Contribution of Working Group I to the Fifth Assessment Report of the 
Intergovernmental Panel on Climate Change [Stocker, T.F., D. Qin, G.-K. 
Plattner, M. Tignor, S.K. Allen, J. Boschung, A. Nauels, Y. Xia, V. Bex 
and P.M. Midgley (eds.)]. Cambridge University Press, Cambridge, United 
Kingdom and New York, NY, USA.
    Melillo, Jerry M., Terese (T.C.) Richmond, and Gary W. Yohe, Eds., 
2014: Climate Change Impacts in the United States: The Third National 
Climate Assessment. U.S. Global Change Research Program, 841 pp. 
doi:10.7930/J0Z31WJ2.
    Stocker, T.F., D. Qin, G.-K. Plattner, L.V. Alexander, S.K. Allen, 
N.L. Bindoff, F.-M. Breon, J.A. Church, U. Cubasch, S. Emori, P. 
Forster, P. Friedlingstein, N. Gillett, J.M. Gregory, D.L. Hartmann, E. 
Jansen, B. Kirtman, R. Knutti, K. Krishna Kumar, P. Lemke, J. Marotzke, 
V. Masson-Delmotte, G.A. Meehl, I.I. Mokhov, S. Piao, V. Ramaswamy, D. 
Randall, M. Rhein, M. Rojas, C. Sabine, D. Shindell, L.D. Talley, D.G. 
Vaughan and S.-P. Xie, 2013: Technical Summary. In: Climate Change 
2013: The Physical Science Basis. Contribution of Working Group I to 
the Fifth Assessment Report of the Intergovernmental Panel on Climate 
Change [Stocker, T.F., D. Qin, G.-K. Plattner, M. Tignor, S.K. Allen, 
J. Boschung, A. Nauels, Y. Xia, V. Bex and P.M. Midgley (eds.)]. 
Cambridge University Press, Cambridge, United Kingdom and New York, NY, 
USA.
    Wdowinski, S. R. Bray, B. P. Kirtman, Z. Wu, 2016: Increasing 
flooding hazard in coastal communities due to raising sea level: Case 
study of Miami Beach, Florida. Ocean and Coastal Management, 126, 1-8.

    Senator Nelson. Thank you very much, Dr. Kirtman.
    Dr. Berry.

           STATEMENT OF LEONARD ``LEN'' BERRY, Ph.D.,

       EMERITUS PROFESSOR, GEOSCIENCES, FLORIDA ATLANTIC

           UNIVERSITY, AND VICE PRESIDENT, GOVERNMENT

             PROGRAMS, COASTAL RISK CONSULTING, LLC

    Dr. Berry. Senator, Congressman, Mayors, 5 years ago, 
almost to the day, I testified before the Senate Committee on 
Natural Resources in Washington, and I started with a joke. I 
said, ``the sky is not falling, but the seas are rising.'' It 
got their attention. Now I can tell you the seas are still 
rising, and I wonder sometimes if the skies are falling.
    What I thought I would try to do today was really talk 
about what has happened in those 5 years in relation to sea-
level rise and our understanding.
    On the science side, we have all the stuff that Ben has 
talked about, but we have also understood the processes better. 
We know more about the Antarctic and what is happening there. 
We know more about the role of the Gulf Stream in our local 
sea-level rise. We did not know a lot of that 5 years ago. We 
know it now. And as Ben says, the percent of certainty goes up 
from 95 beyond.
    We know a lot more, and we are a lot more scared, because 
if I look at the new information coming up year by year, every 
time it gets a little bit worse. It is not inference. It is 
what data comes out, what information comes out.
    In my written testimony, I emphasize, and we can emphasize 
more, that the information provided by NOAA, NASA, and all of 
our other agencies are vital for our understanding of what is 
happening now and for our understanding of what is going to 
happen in the near and more distant future.
    Also, the data is vital for mayors, Congressmen, 
businesses. The business I co-founded relies on NASA data--
LIDAR, sea-level tides, and so on. Information is the key to 
our understanding. And reliable, credible information is what 
we have to rely on.
    Our appreciation of risk has changed over 5 years partly 
because of all of the stuff I am talking about but also, as you 
point out--you stole my thunder--it is about experience. We 
experience flooding. We spend $100 million a year in Miami 
Beach on pumps. We do all of this stuff, and it is new.
    And so as our appreciation of risk has changed, our 
response has changed. We have sustainability officers--one 
great one here. A lot of counties, cities, now have 
sustainability officers, because they need people who 
understand a broad range of change and are willing to manage it 
in a relatively uncertain future.
    I think our responses have changed. We were not spending 
$100 million anywhere on pumps 5 years ago. But king tides have 
convinced us that the problem is not in the future. It is now. 
Adaptation action scenarios have been designated, mainly in 
Broward County, and people in those areas have special legal 
issues and special responses.
    Investments in people and technology are protecting more 
than the buildings and the infrastructure. They are protecting, 
as you point out, the economy. Our economy depends on our 
coastal areas being vital. And without responding to our sea-
level rise issues, those coastal areas will be in trouble.
    On the other hand, there are opportunities there that we 
have in using our technology to be innovative, create new 
ideas, and create new jobs.
    Homeowners have a responsibility too. The company I am 
working with focuses on individual homeowners. We can provide 
them with information on what they need to do. They can match 
what the communities are going to do and become a stable 
community where the central organization is not doing one thing 
and the homeowners are trying to catch up. Homeowners need to 
take adaptation action, and they need data to do it.
    This may sound good as a regional response, and we feel 
very proud of it, but it pales in significance beyond what 
needs to be done.
    As you pointed out and as we all know, great things done at 
the regional level have to be matched at the State level and at 
the Federal level. We need a coherent policy that deals with 
all of those levels at one time, and I hope that we can find 
ways that this Committee can do them.
    [The prepared statement of Dr. Berry follows:]

Prepared Statement of Leonard ``Len'' Berry, Ph.D., Emeritus Professor, 
     Geosciences, Florida Atlantic University, and Vice President, 
           Government Programs, Coastal Risk Consulting, LLC
    I am Dr. Leonard Berry, founder and former director of the Florida 
Center for Environmental Studies at Florida Atlantic University (FAU), 
now Emeritus professor of geosciences at FAU. I am also the co-founder 
and Vice President of Coastal Risk Consulting, LLC, a start-up 
technology company providing affordable flood vulnerability and risk 
assessments, located in Plantation, Broward County, Florida.
    As a scientist and businessman, and as a resident, I want to 
emphasize that sea level rise is a critical issue in South Florida--not 
only in Miami, which gets most of the press--but for the whole region, 
including here in Palm Beach County. The issue requires our scientific, 
legislative and legal attention; and our current investment in the 
amount of several billions of dollars to be spent over the next few 
years alone.
    As the topics of this hearing suggest, dealing with the current and 
future threat of sea level rise requires a combination of the best 
available science, based on credible and ongoing global data, and 
assessment of that data with respect to conditions on the ground--from 
communities to individual properties--to determine degrees of risk now, 
and in the future.
    But the important part is action across all parts of society, from 
government on the local to national levels, in the business community, 
and in civil society. While we have seen responses from many parts of 
our community in South Florida, the action is far from universal.
    My colleague Dr. Ben Kirtman will address the scientific progress 
in some detail, but his work and that of others depend on the continued 
information flow from the Federal Government. I have attached a letter 
to the President from many Florida scientists that underscores the 
importance of science and information.
    It can't be overemphasized--continued flow of global data is vital 
to our understanding of the science of sea level rise and the actions 
we take form that science. As the 2016 Sea-Level Rise Summit (http://
www.ces.fau.edu/arctic-florida/) highlighted, the fate of Florida 
depends on what happens in the Arctic and Greenland. And over a longer 
timeframe, what happens in Antarctica is important too. There are large 
questions and uncertainties regarding the melt rate and effects of ice 
on land. We must continue to learn more and reduce these uncertainties.
    South Florida and the state as a whole have long experience of 
dealing with risk in the form of major storms or hurricanes. Extreme 
weather is predicted--we prepare for it, and if it strikes, we respond 
and rebuild.
    Risk from sea level rise is different however; steady increase in 
the number of sunny-day flooding events is more insidious, though 
sometimes, like during Sandy, the level of risk does not get fully 
exposed until an storm like no other.
    In various ways the region has begun to assess the level of risk 
and to respond. The obvious threat is physical damage to 
infrastructure, but we now recognize that the economy is also at risk 
unless remedial actions are taken. The Southeast Florida Regional 
Climate Compact, an important partnership now supported scientifically 
by the statewide Florida Climate Institute, has begun laying out the 
response to these challenges. Action has been occurring a slower pace, 
albeit faster than almost anywhere else in the United States.
    One of the Compact's activities is the Resilient Redesign series, 
where sample areas are re-planned to thrive in a future sea level 
situation. The Resilient Redesign concepts for part of Delray Beach are 
appended as examples.
    Adaptation to sea level rise however, has both top-down and bottom-
up components. Government on all levels will have a responsibility to 
assist, and individual homeowners have obligations as well.
    In the last five years, we have observed case studies on sea level 
rise adaptation. The City of Miami Beach is on the forefront--raising 
streets, communicating directly with residents, and having the 
difficult, but necessary conversations about sea level rise. Recently, 
the Cities of Miami and Miami Beach with Miami-Dade County were honored 
by being accepted as part of the Rockefeller Foundation's 100 
Resilience Cities program, further elevating the conversation and 
creating a cross-government organization to do so. These issues will 
not be solved by one level of government, but will require crosscutting 
and boundary-breaking ideas and actions. Dr. Jennifer Jurado, the Chief 
Climate Resilience Officer for Broward County, can more knowledgably 
speak to local government adaptation actions.
    Private homeowners have a responsibility as well. Individual 
residents are going to have to take adaption actions to protect their 
homes and assets. In order to take necessary actions, homeowners need 
accurate and trustworthy actionable intelligence. This is where 
innovation and technology intersect with sea level rise.
    After I retired from Florida Atlantic University, I co-founded a 
company based in South Florida called Coastal Risk Consulting. The 
company's mission is to help coastal residents in the United States and 
around the world prepare for sea level rise and coastal flooding. It 
has become my mission to use the best available science and distill 
that down to the individual property level to create a communication 
tool personalized to a homeowner. Coastal Risk forecasts the numbers of 
fair-weather flood days an individual property owner will see for the 
next 30 years. This is all presented in an adaptation framework, 
proposing adaptation steps based on the number of fair-weather flood 
days.
    Homeowners can use this data to make the decision to adapt now, 
plan on adapting in the future, or decide that adaption will not be 
necessary for the foreseeable future. The important part of the 
decision making process is that it is a well-informed decision about 
personal adaptation. As cities and towns begin to plan for adaption, 
homeowner must as well. This is how we will create robust and resilient 
communities.
    Sea level rise is a complex, multi-faceted issue that will require 
the best minds from all fields of study and industries to come 
together.
    For example, in addition to protecting their assets through 
adaptation, homeowners protect their homes through insurance. As 
Congress begins to reauthorize the National Flood Insurance Program, we 
must also consider the effects of sea level rise. Big questions remain 
for the program--What will flood insurance look like in the future? 
When homes begin to flood due to fair-weather flooding associated with 
sea level rise, will that be an insured loss? What will happen to flood 
insurance in those areas that are now more susceptible to coastal 
inundation due to sea level rise?
    Sea level rise will also raise new and complex environmental 
issues. How will we ensure that traditional septic tanks will not 
contaminate surrounding areas? What other issues will communities need 
to consider as salt water begins to interact with the built 
environment?
    In addition, South Florida has its own set of complex issues. The 
limestone base of our community is basically a porous rock. So as sea 
level rises, the water table will be pushed closer to the surface. 
Communities close to sea level, even far inland, will see water seep 
through the surface creating puddles at low lying points. Properly 
communicating this risk is imperative, as sea level rise is currently 
considered solely an issue for communities that abut the coastline.
    While sea level rise is acknowledged as a South Florida concern, it 
is becoming an issue for every coastal community in the world. Boston, 
Norfolk, Santa Monica, Charleston, New Orleans, and even our Nation's 
capital, Washington, DC, are beginning to see clear signs that the seas 
are rising. We want all of our cities to be resilient.
    Adaptation to sea level rise and resiliency go hand in hand. We 
cannot create resilient communities along our coastlines if we do not 
begin the adaptation conversation now, and in order to have a 
conversation, we must have the best available data. States, local 
governments, and companies rely on this data from the Federal 
Government and we'll need it even more going forward.

    Attachments: Letter to the President, dated March 13, 2017, 
Resilient Redesign notes and presentation excerpt
                              Attachments
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                           

    Senator Nelson. Thank you, Dr. Berry.
    Mr. Hedde.

            STATEMENT OF CARL G. HEDDE, CPCU, HEAD,

                 RISK ACCUMULATION DEPARTMENT,

                MUNICH REINSURANCE AMERICA INC.

    Mr. Hedde. Good afternoon. Thank you for inviting me to 
testify.
    As Senator Nelson mentioned, I work for a company, Munich 
Re, that allows us to talk about climate change.
    Today, I want to share some thoughts on the potential 
financial impact posed by climate change and on resiliency 
steps that society must undertake to mitigate the human and 
financial toll of our changing climate.
    Let me begin with a quote from Dr. Peter Hoppe, Head of the 
Munich Re Corporate Climate Center, and a leading climate 
change expert. He said, ``A look at the weather-related 
catastrophes of 2016 shows the potential effects of unchecked 
climate change. Of course, individual events themselves can 
never be attributed directly to climate change. But there are 
now many indications that certain events, such as persistent 
weather systems or storms bringing torrential rain and hail, 
are more likely to occur in certain regions as a result of 
climate change.''
    The insurance industry relies heavily on historical loss 
information to make business decisions. However, the use of 
historical loss data assumes that the risk we see today is the 
same that it was in the past. This is not always the case. As 
an industry, we also rely heavily on weather and climate data 
produced by NOAA.
    Losses from weather catastrophes in the U.S. have increased 
in both frequency and severity over the past 4 decades. In the 
U.S., socioeconomic changes have played a substantial role in 
this increase, but do not explain the entirety of the changes. 
It is likely that the changes in climate, whether from natural 
variability or due to man's influence, are playing a role in 
these trends.
    During 2016, the U.S. experienced approximately 91 large 
natural catastrophe events. Of the 91 events, only two were 
caused by earthquakes. The other 89 events have a climate 
connection.
    The economic loss for these 91 events totaled approximately 
$43.9 billion U.S. dollars, of which $23.8 billion, or 55 
percent, was covered by insurance. The difference is the amount 
that is not insured and thus directly borne by U.S. citizens in 
the form of retained loss, cost of disaster relief, or lost 
economic opportunity.
    Within the U.S., approximately 50 percent of all losses 
caused by large natural catastrophe losses are historically not 
covered by insurance. In the U.S., related events such as 
hurricanes and other wind-related events have a higher 
penetration of insurance coverage as compared to earthquake and 
flood events.
    Human safety is our greatest concern when natural cat 
events occur. During 2016, 260 lives were lost due to severe 
weather events in the U.S. Just weeks ago on March 30, a mother 
and her 3-year-old daughter lost their lives in a relatively 
weak EF-1 tornado with estimated winds of about 100 miles per 
hour. The tornado occurred in Breaux Bridge, Louisiana, placing 
their mobile home in the HUD Zone 2, with mobile home design 
speed requirements of around 100 miles per hour. Unfortunately, 
it appears that this mobile home was likely built before HUD 
standards were adopted, and it appears to have been placed on 
cinder blocks without tiedowns.
    Munich Re feels that if mobile homes were required to be 
properly sited and designed to the stronger HUD Zone 3 
standards, this tragic loss of life could have been avoided. So 
we recommend that all mobile homes in the U.S. be designed and 
installed at the Zone 3 standards, and those would be built to 
withstand about 110 miles per hour.
    These tragedies can be significantly reduced or even 
avoided if proper building codes and enforcement are in place. 
The citizens of Florida enjoy some of the most stringent 
building codes in the U.S.
    After Hurricane Andrew in 1992, Florida officials 
strengthened both the building codes and building code 
enforcement. It is time for building codes to be strengthened 
across the U.S.
    As a Nation, we must build stronger homes. Most of our 
homes and businesses are not built to a changing climate and 
the weather that a changing climate might bring. The cost in 
terms of lost lives, and damage to homes and businesses, and 
community post-event viability is devastating.
    So in summary, we must address climate change on multiple 
fronts. Munich Re supports a smart, balanced approach that 
protects the public but does not stifle business or innovation. 
Researching and addressing the genesis of climate change is one 
step. Preparing our Nation for the impacts of a changing 
climate must happen concurrently.
    National preparation must keep citizens safe in the face of 
the natural disasters we are experiencing. Safety starts in our 
homes, and extends to our schools and businesses. It is in the 
mutual interests of the Federal Government and the insurance 
industry to partner to find solutions in the areas of 
adaptation and risk.
    Thank you again for allowing me to testify today.
    [The prepared statement of Mr. Hedde follows:]

  Prepared Statement of Carl G. Hedde, CPCU, Head, Risk Accumulation 
              Department, Munich Reinsurance America Inc.
    Good afternoon and thank you for inviting me to testify. I am Carl 
Hedde, Head of the Risk Accumulation Department at Munich Reinsurance 
America Inc., one of the largest reinsurers in the United States.
    Founded in 1917, we have over 1,000 employees serving our clients 
in the U.S. Our parent company, Munich Re, is one of the world's 
leading reinsurers.
    Today I will share thoughts on the potential financial impacts 
posed by climate change, and on resiliency steps that society must 
undertake to mitigate the human and financial toll of our changing 
climate.
    Let me begin with a quote from Dr. Peter Hoppe, Head of the Munich 
Re Corporate Climate Center, and a leading climate change expert. Dr. 
Hoppe said, ``A look at the weather-related catastrophes of 2016 shows 
the potential effects of unchecked climate change. Of course, 
individual events themselves can never be attributed directly to 
climate change. But there are now many indications that certain 
events--such as persistent weather systems or storms bringing 
torrential rain and hail--are more likely to occur in certain regions 
as a result of climate change''.
    The insurance industry relies heavily on historical loss 
information to make business decisions. However, the use of historical 
data assumes that the risk we see today is the same as it was in the 
past. This is not always the case. As an industry, we also rely on 
weather and climate data produced by NOAA.
    Losses from weather catastrophes in the U.S. have increased in both 
frequency and severity over the past four decades. In the U.S., 
socioeconomic changes have played a substantial role in this increase, 
but do not explain the entirety of the changes. It is likely that 
changes in climate, whether from natural variability or due to man's 
influence, are playing a role in these trends.
    During 2016, the U.S. experienced approximately 91 large natural 
catastrophe--or ``Nat cat'' events, after removing small scale events. 
Of the 91 events, only two were caused by large earthquakes. The other 
89 events have a climate connection. The frequency of earthquakes is 
remaining relatively constant.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The upward trend in regard to losses from weather catastrophes is 
also apparent in the economic and insured losses for some weather-
related perils, such as severe tornado and hail outbreaks in the U.S.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The economic loss total for these 91 events totaled approximately 
$43.9 billion U.S. dollars, of which $23.8 billion, or 55 percent was 
covered by insurance. The difference between Economic and Insured 
Losses is the amount that is not insured and thus directly bourn by 
U.S. citizens in the form of retained loss, cost of disaster relief or 
lost economic opportunity.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Within the U.S., approximately 50 percent of all losses caused by 
large natural catastrophes are not covered by insurance. In the U.S., 
weather related events such as Hurricanes and other wind related events 
generally have a higher penetration of insurance coverage as compared 
to Earthquake events. The coverage penetration for flood protection is 
also very low, and presents a critical exposure for our citizens.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Adaptation
    Human safety is our greatest concern when natural cat events occur. 
262 lives were lost due to severe weather events in the U.S. in 2016.
    Just weeks ago, on March 30, 2017, a mother and her 3 year old 
daughter lost their lives in a relatively weak EF-1 Tornado with 
estimated winds of 100 MPH. The tornado occurred in Breaux Bridge, LA, 
placing their Mobile Home in the HUD Zone 2, with Mobile Home design 
speed requirements of 100 mph. Unfortunately it appears that this 
particular mobile home was likely built before HUD standards were 
adopted, and appears to have been placed on cinder blocks without tie-
downs. Munich Re feels that if the Mobile Home was required to be 
properly sited and designed to the stronger HUD Zone 3 standards, this 
tragic loss of life could have been avoided. Munich Re recommends that 
all Mobile Homes in the U.S. be designed to the stronger HUD Zone 3 
standards, which are built to withstand winds of 110 MPH.
    We constantly hear tragic stories of communities being devastated 
by severe weather events. These tragedies can be significantly reduced 
or even avoided if proper building codes and enforcement are in place. 
The citizens of Florida enjoy some of the most stringent building codes 
in the U.S. After Hurricane Andrew in 1992, Florida officials 
strengthened both the building codes and building code enforcement. It 
is time for building codes to be strengthened across the U.S. . .
Taking Action
    As a nation, we must build stronger homes. Most of our homes and 
businesses are not built to withstand the weather we have today, let 
alone the weather a changing climate might bring. The cost--in terms of 
lost lives, damage to homes and businesses, and community post-event 
viability--is devastating.
    Munich Re supports a non-profit organization called ``IBHS''--the 
Insurance Institute for Business and Home Safety. The insurance 
industry and IBHS have been conducting research into, and promoting 
stronger building codes and construction practices. Much of the 
findings are incorporated into the IBHS Fortified Program which 
essentially promotes Code+ construction standards.
    Munich Re is committed towards the goal of making our country's 
building stock more resilient than it is today. For example, Munich Re 
funded the development of a ``tablet app'' in partnership with the IBHS 
that can help users build or retrofit a home to IBHS Fortified 
standards. The ``app'' is available for free on the iTunes app store, 
and we encourage all attendees at today's meeting to test it out and 
distribute it to your constituents.
    In summary, we must address climate change on multiple fronts. 
Munich Re supports a smart, balanced approach that protects the public, 
but does not stifle business or innovation. Researching and addressing 
the genesis of climate change is one step. Preparing our Nation for the 
impacts of a changing climate must happen concurrently. National 
preparation must keep citizens safe in the face of the natural 
disasters we are experiencing. Safety starts at our homes, and extends 
to our schools and businesses. It is in the mutual interest of the 
Federal Government and the insurance industry to partner to find 
solutions in the areas of adaptation and risk transfer.
    This makes absolute sense from a macroeconomic perspective, as 
lower subsequent losses will generate savings of several times the 
investment. Most importantly--these solutions can protect human lives.
    Thank you again for providing this opportunity for me to testify.

    Senator Nelson. Thank you, Mr. Hedde.
    Dr. Jurado.

 STATEMENT OF DR. JENNIFER L. JURADO, CHIEF RESILIENCE OFFICER 
 AND DIRECTOR, ENVIRONMENTAL PLANNING AND COMMUNITY RESILIENCE 
               DIVISION, BROWARD COUNTY, FLORIDA

    Dr. Jurado. Thank you. Good afternoon, Senator Nelson, 
Congressman Deutch, and Mayors. It is a great honor to speak 
with you regarding the very real challenges facing our county 
and Southeast Florida as a whole regarding climate change.
    Our region is working aggressively to address the reality 
and the impact that sea-level rise is affecting our coastal 
counties. Not only is the global science clear, but regional 
data and local impacts align unambiguously with the 
predictions.
    We know that the sea level has risen and continues to rise 
at an ever-accelerating rate. Like many regions in the states, 
we are already grappling with the impacts.
    However, in South Florida, our circumstance is unique given 
the expansive impacts on our region's drainage, our flood 
control, and our water supplies.
    These are not examples of future risk, but are reality 
today. Tidal flooding is not just a mere nuisance, but an 
agonizing recurrence for many of our communities.
    Seasonal flooding isolates neighborhoods, restricts 
commerce, and disrupts essential services.
    As you see in the many photos, storm water systems and 
streets fill with seawater as walls are overtopped. Coastal 
waters backflow through pipes and storm drains. Marinas now 
funnel water into streets and nearby neighborhoods. And 
businesses, as Congressman Deutch has seen, must seal their 
front doors with caulk in order keep the water at bay.
    These are the visible impacts, but the region's 
vulnerabilities extend well beyond the coastal corridor. Rising 
seas will contaminate 40 percent of the coastal wellfield 
capacity in Broward County alone. Our regional flood management 
system, the Central and South Florida Flood Control Project, is 
losing capacity as rising seas restrict discharges at tidal 
structures, preventing flood relief during rainfall events. 
Groundwater elevations are rising, reducing soil storage and 
compounding flooding miles inland.
    The situation is challenging but it has also marshaled 
incredible leadership across our region. As you have heard, in 
2010, the Southeast Florida Climate Change Compact was formed 
by Broward, Palm Beach, Miami-Dade, and Monroe counties, 
inclusive of 108 cities in our region. Through the efforts of 
the Compact, we have accelerated climate resiliency policy, 
planning, projects, and aided the realization that immediate 
action is required.
    We understand science. We have developed the tools. 
Collectively, we are all utilizing the same sea-level rise 
projection to inform our planning, our consulting services. It 
is time to invest in infrastructure to reduce risk, improve our 
communities, and stimulate our economies. Across the region, we 
have adopted the sea-level rise projection. It is integrated 
across our processes.
    We have pursued strong partnerships with our Federal 
agencies that have continued to inform the scope, depth, and 
power of our work, a decade-long collaboration with the USGS to 
form the hydrologic models. We are utilizing tools developed by 
FEMA. We are partnering with the Army Corps of Engineers. We 
work with the EPA on resiliency studies. And we are utilizing a 
NOAA-funded project to further address resiliency.
    These are the investments that are now informing the design 
standards for drainage systems, higher finished floor 
elevations, and resiliency for interconnected systems.
    In Broward County, we are amending our code of ordinances 
to formally adopt a future conditions map for the design of all 
infrastructure in our county. We recognize local communities 
must shoulder certain conditions and responsibilities. However, 
Federal and State action are equally important.
    Given our location between two national priorities, the 
Everglades and the Atlantic Coast, our flood protection relies 
upon upgrades to the Central & South Florida Flood Control 
Project and the Intracoastal Waterway.
    We urge the Federal leadership to prioritize resiliency and 
infrastructure improvements of this infrastructure. We know the 
price tag will be large, but these are investments that will 
further the economies where we already account for one-third of 
the State GDP, but coastal communities also make up 50 percent 
of our national economy.
    Investment in coastal resilience will bolster economic 
activity through vast public works projects, through the 
preservation of economies long term. And, ultimately, this is 
just the beginning in terms of where these impacts are most 
visible today. All of our Nation ultimately relies upon the 
revenues and economies that our coastal communities support.
    These impacts are already in motion. We hope that Federal 
leadership will continue to provide resources to support the 
science that aids our communities, clean energy that will help 
harness the magnitude of future changes, and investments in 
transportation programs where so much of our emissions are 
generated.
    We want to do our share of the national and international 
work to cut emissions and are eager to partner with the Federal 
Government in this effort. We thank you for the opportunity and 
the efforts to bring policy and resources to bear in addressing 
climate risk and impacts to our community and Nation. Thank 
you.
    [The prepared statement of Dr. Jurado follows:]

Prepared Statement of Dr. Jennifer L. Jurado, Chief Resilience Officer 
and Director, Environmental Planning and Community Resilience Division, 
                        Broward County, Florida
    Good morning, Senators, Representatives, and distinguished guests.
    I am Dr. Jennifer Jurado, Chief Resilience Officer and Director of 
the Environmental Planning and Community Resilience Division for 
Broward County. Thank you for convening this hearing here in Southeast 
Florida and for bringing attention to the vitally important issues of 
climate science, coastal risk, and the urgency of action. It is a great 
honor to speak with you regarding the very real challenges facing 
Broward County and southeast Florida as a whole. Our region is working 
aggressively to address the increasingly unavoidable realities of 
climate change, and the impacts of sea level rise in particular on 
coastal counties.
    Not only is the global science clear, but regional data and local 
impacts align unambiguously with the predictions.
    We know that the sea level has risen and continues to rise at an 
ever accelerating rate. Like many regions across the United States, we 
are already grappling with impacts. However, the south Florida 
circumstance is unique given the expansive impacts of sea level rise on 
our region's drainage, flood control, and water supplies.
    These are not examples of future risk and exposure, but rather the 
reality we experience in our communities from sea level rise today. 
Tidal flooding is no longer a mere nuisance, but an agonizing 
recurrence for many south Florida communities, with water levels that 
increasingly exceed predictions and place people, businesses, and 
infrastructure at increased risk.
    Seasonal tidal flooding isolates neighborhoods, restricts commerce, 
and disrupts essential services. Stormwater systems and streets fill 
with water as seawalls are overtopped. Coastal waters backflow through 
storm drain pipes, causing water to rush out of storm drains. Marina 
boat ramps turn into funnels, pouring the ocean onto nearby streets and 
inundating neighborhoods. Businesses must seal their front doors with 
caulk to keep the water at bay. Employees and customers use alley 
entries, donning galoshes or rolling up their pant legs. Many have 
become practiced at making a mad dash for their vehicles before the 
parking lot and adjacent roadways become inundated with saltwater for 
2-3 hour periods. This condition repeats 12 hours later, and daily over 
the next week, and again the following month, and so on.
    These are the visible effects, but the region's vulnerabilities to 
the impacts of sea level rise extend well beyond our coastal corridors. 
Our regional flood management system, the Central & South Florida Flood 
Control Project (CSF Project for short), is losing capacity as rising 
seas restrict discharges at tidal structures, compromising flood 
protection for inland communities miles away from the coast. The South 
Florida Water Management District has estimated that 18 of these 
structures are already within six inches of their design capacity. At 
the same time, due to our porous geology, groundwater elevations are 
rising in direct response to the rising sea, reducing the ability of 
the soil to store water and thereby exacerbating flooding.
    The situation is immensely challenging, but it has also marshalled 
leadership from across our region, in an organized effort focused on 
both climate mitigation and adaptation strategies. In 2010, this 
regional collaboration was formalized as the Southeast Florida Regional 
Climate Change Compact, organized by Broward, Palm Beach, Miami-Dade 
and Monroe Counties, and inclusive of 108 municipalities. The efforts 
of the Compact have accelerated climate resiliency policy, planning, 
and projects throughout the region in an unprecedented fashion that has 
become a model for regions across the globe. There is an urgency in our 
efforts, and a growing realization across all sectors that the time for 
preemptive action has already passed and that immediate action is 
required. We understand the science. We have developed the tools. It's 
time to invest in infrastructure and updated design standards that will 
reduce risk, improve our communities, and stimulate our economies.
    Our communities are taking action and ownership. Across the region 
we have formally adopted a unified sea level rise projection as the 
basis for adaptation planning and integrated that projection into 
capital, land use, water supply, transportation, emergency management, 
and capital investment plans. We have pursued strong partnerships with 
our Federal agencies, relationships that continue to expand in their 
scope, depth, and power to inform.
    This has included:

  <bullet> A decade-long collaboration with the United States 
        Geological Service in the development of advanced hydrologic 
        models to help assess the impacts of sea level rise on water 
        supplies and flood elevations.

  <bullet> A resiliency study under the Planning Assistance for States 
        Programs with the United States Army Corps of Engineers to 
        evaluate the future flood conditions, risk reduction measures, 
        and resiliency standards for sea walls.

  <bullet> A study that will build upon modeling tools developed by 
        FEMA. A collaborative resiliency study with the EPA focused on 
        a coastal municipality.

  <bullet> A partnership with Deltares, a Dutch water institute, in a 
        NOAA-funded project focused on future flood risk, sectoral 
        interactions, and decision-support for resiliency planning.

    The technical investments and projects are now being translated to 
practical applications as we prepare to update our regulations to 
address future flood conditions, including revised design standards for 
drainage systems, higher finished floor elevations, and consistent 
standards for interconnected and interdependent systems. These 
investments will help reduce flood risk, including future FEMA losses, 
and will create a foundation for a more resilient community and 
economy.
    We recognize our local communities must shoulder certain 
responsibilities to protect our residents, businesses, infrastructure, 
properties, and environmental resources, and we are aligned regionally 
in this determination. However, the effectiveness of our regional 
planning, of all of our investments, is dependent on strong Federal and 
state partnerships and joint action. Given our location between two 
vitally important national priorities, the Everglades and the Atlantic 
coast, our flood protection relies upon federally-supported upgrades to 
the Central & South Florida Flood Control Project and the Intracoastal 
Waterway.
    So, as we continue to make significant advancements regionally and 
locally, we urge our Federal leadership to prioritize the building of 
resilient communities and infrastructure and specifically request that 
our Federal and state partners undertake a detailed evaluation of the 
CSF Project and Intracoastal Waterway for flood protection service 
levels under evolving climate conditions, especially sea level rise, 
and to develop a comprehensive infrastructure and funding plan to 
execute the necessary improvements for our region's flood protection.
    I mentioned the partnership agreement with the Army Corps to 
develop recommendations for resilient sea walls. With more than nearly 
400 miles of armored and armored shoreline, preliminary estimates 
suggest a cost between $1 billion and $4 billion. Needless to say, this 
level of investment is beyond the means of Broward County government 
alone to finance. But this investment and many others will need to be 
undertaken, because the no-action alternative will be far more costly.
    Of course, seawalls are only part of the solution. Coastal flood 
control structures--part of the CSF Project--will need to be converted 
from gravity-based to pump-operated systems. Improvement of each 
structure is likely to cost around $50 million. Stormwater systems will 
need to be upgraded. Miami-Beach has advanced a $400 million stormwater 
improvement plan, just to address sea level rise. Roads will need to be 
raised and drainage systems will need to be reengineered.
    Coastal communities account for nearly 50 percent of our national 
GDP. Southeast Florida accounts for one-third of our state GDP. 
Investment in the resilience of these communities is essential to 
preserving not only local economies, but our national economy. 
Investments in resilience will provide shared benefits. Deferral is an 
option we cannot afford.
    I would also like to take a moment to acknowledge that we also have 
an obligation locally, as a state, and as a nation, to reduce 
greenhouse gas emissions--and this need is just as urgent. Many climate 
impacts will be unavoidable, given our emissions to date. But our 
choices today and in the next few decades about energy, transportation, 
land use, food, and environmental protection will determine if future 
generations face manageable climate impacts or severely compromised 
conditions.
    In Southeast Florida, we are well aware of our contributions to the 
problem of climate change. We have some programs in place to reduce our 
energy and fuel use, but our efforts are admittedly too modest. We face 
significant challenges--often beyond our direct control--in deploying 
solar energy, reducing building energy use, and transitioning to a 
transportation system with more choices and fewer emissions. 
Fortunately, the Federal Government has been a leader and partner over 
the last decade, helping local governments and regions to begin to 
overcome these barriers by offering significant technical assistance, 
backed by national-level policy decisions which provide great benefit 
to our vulnerable region. We hope that our Federal leadership continues 
to provide resources to Federal agencies for climate science, clean 
energy and transportation programs, and local assistance. We want to do 
our share of the national and international work to cut emissions, and 
we will, but we continue to need the Federal Government's help.
    Thank you again for this opportunity and for your efforts to bring 
policy and resources to bear in addressing the risk and impacts of 
climate change on our communities and nation.

    Senator Nelson. Thank you.
    I want to commend all of you. I have never seen witnesses 
pay attention to the 5-minute rule.
    [Laughter.]
    Senator Nelson. So thank you.
    By the way, if anybody is wondering why we do not have 
somebody that has the opposite opinion here, we have had that 
plenty of times in front of this Committee. The case today is 
the Full Committee. But a year ago, we had the Science and 
Space Subcommittee chaired by Senator Cruz of Texas, and the 
minority was allowed one witness. There were four witnesses by 
the majority, and all of them were denying that the climate was 
changed.
    We selected as the minority witness the former head of 
meteorology for the United States Navy, a retired Admiral. And 
of course, he presented in livid and living detail a lot of the 
points that you all have pointed out.
    So there has been a fair hearing of all parts of the issue 
saying that it is fair and balanced. However, when you talk 
about scientific attitudes, it is another thing. So, thank you, 
you are particularly good on this.
    Now, what is the procedure here? The Committee will ask 
some questions of the witnesses. I am going to defer to our 
witnesses up here, and I will do some cleanup.
    So let me turn to Congressman Deutch.
    Mr. Deutch. Thanks very much, Senator.
    Thanks so much to the witnesses. I think the answer to why 
are there not other views, Dr. Kirtman, you provided the 
answer, which I will refer to over and over again, and that is 
``multiple lines of evidence,'' and it is appropriate for us to 
be hearing from all of you who have seen and understand and 
appreciate those multiple lines of evidence.
    I want to ask a question to everyone on the panel, and it 
has to do with the President. And I would like you, if the 
President were sitting here across from you, instead of as 
close as he is on a regular basis, as our Mayors know, here in 
Palm Beach County--I do not want to focus on the concerns that 
a lot of us have about statements from some in the 
Administration about climate change and how they view climate 
change. I want to focus on the President's campaign promise and 
repeated statements since being elected that he wanted to make 
a massive investment in infrastructure.
    And I want to take advantage of having all of you here, 
because you all, in one way or another, have talked about the 
importance of resiliency and adaptability and preservation and 
mitigation.
    So if the President asked you what kinds of investments in 
our big infrastructure plan that we all hope is coming, what 
kinds of investments can we make that will sustain our economy, 
generate economic growth, and, at the same time, help us 
address the very real issues that we are grappling with that 
have been the focus of this hearing, what kinds of investments 
would you tell him to make?
    Dr. Jurado, why don't we start with you?
    Dr. Jurado. Sure, I would be glad to address that question.
    First of all, beginning with the Central and South Florida 
flood control system, we know that 18 of the salinity control 
structures on the system are within 6 inches of their design 
capacity. Those gravity control structures need to be retrofit 
with pumps, and we need a comprehensive plan on how we will 
maintain flood elevations for flood protection for an entire 
community through modified operation and investment in that 
system.
    During the 2015 high tide events, the Intracoastal Waterway 
has been overtopped in Broward County and Hollywood. Last year, 
the high tide events were 1 inch beneath the top wall of the 
Intracoastal Waterway. This is Federal infrastructure well 
beyond the capacity of any community to be able to upgrade. We 
are working with the Army Corps of Engineers on recommended top 
elevations for our seawalls under future climate conditions. We 
should use that information to inform investments on those 
barriers to coastal flooding.
    Seawalls in Broward County, we have 350 miles of shoreline 
with all the finger canals and waterways in the county. Those 
will collectively have to be upgraded to a common top 
elevation. Easily, that price tag is $1 billion to $4 billion, 
depending on the structural integrity of those seawalls.
    And you have all the municipal storm systems and roadways 
that can potentially be addressed at the same time.
    Those are the key pieces of infrastructure that I suggest 
we might begin with.
    Mr. Deutch. Thank you very much.
    Mr. Hedde?
    Mr. Hedde. Sure. As a global insurer, reinsurer, we wind up 
paying losses across a wide spectrum of properties, whether 
they are residential or commercial. And we are strong 
supporters of stronger and large investment in infrastructure. 
We focus on the infrastructure that ultimately will protect 
these businesses and homes that we are working in.
    On a micro level, listening to us, we talk a lot about 
protecting homes, better building codes. We are a member of the 
IBHS, the Insurance Institute for Business & Home Safety, 
focusing on keeping people safe with broader, better protection 
across the economy.
    Mr. Deutch. Dr. Berry?
    Dr. Berry. Yes, I would focus on the kind of 
infrastructure. And just like after hurricanes, we have a 
tendency to put back what was there before. I would like to see 
any new infrastructure from roads to waterways and so on built 
with an appreciation of climate change.
    Let's have roadways that cannot move water off them but can 
add water into them. Let's build water and roadways that are 
compatible with one another.
    What we often do is put in a highway, and then we have to 
add drains and we have to add all kinds of other things to get 
rid of the water up there.
    Let's look at an integrated way to use a big $1 trillion 
infrastructure bill to create a new moon landing kind of 
approach to it. Let's not do what we have done. Let's create a 
new image of what is the infrastructure of the future, and 
build our electronic infrastructure into this too. We always 
think of roads and rails. What about the electronic 
infrastructure that we need? How should that be? How do we look 
at that 20 years ahead?
    So a futuristic view is what I would appreciate.
    Mr. Deutch. Thank you.
    Dr. Kirtman, any thoughts?
    Dr. Kirtman. It is difficult for me to expand on what my 
colleagues have said. That is a wonderful list. I hope that all 
happens.
    The one thing is I would like to underscore some comments 
that Len said. I think it is critically important that we take 
a holistic view when we think about infrastructure, and that 
holistic view has to include multiple time horizons and 
multiple inputs.
    So we really need to be very, very careful that we 
implement a no-regrets strategy, that we do not do anything 
that we regret 10 years or 20 years or 30 years from now, and 
we also need to be very careful that we take in all the best 
available information. We need to anticipate all of the 
unanticipated events that could happen in how we design our 
infrastructure in the future.
    There are going to be very difficult decisions in the 
future about how we go forward, and we need to start thinking 
and planning for those things now. That requires socialization 
and that requires a lot of careful thinking, and we need to do 
that.
    Mr. Deutch. Thanks.
    Senator, I hope that, in addition to taking these findings 
from this hearing back to Washington, that you will share these 
responses with the White House as well, as they are putting 
together this infrastructure plan. Everything that our 
witnesses suggested will not only help us address climate 
change but will help to preserve and strengthen our economy, 
which is the goal that I think we all share, Democrats and 
Republicans, and what is ought to be driving us today.
    Senator Nelson. I am curious, Dr. Berry. What do you mean 
by a road--I got the impression that it is a road that absorbs 
water?
    Dr. Berry. Yes.
    Senator Nelson. Tell me, what is it made of?
    Dr. Berry. I know in Chicago that any sidewalk renovation 
is done with permeable sidewalks. This is not my field, so I am 
kind of brainstorming. But can we have roads that do not spew 
water everywhere and create new problems on either side, 
particularly here in Florida? But if we had roads that could 
absorb water rather than disperse water, then I think we would 
be dealing with two problems at the same time. I know there is 
some technology.
    Senator Nelson. You are seeing that in driveways, for 
example, in homes. The intrigue that you have caused me to 
wonder is, can you get that kind of surface that will stand up 
to the wear and tear of trucks, et cetera?
    Dr. Berry. That is where our challenges come from.
    Senator Nelson. That is exactly right.
    Madam Mayor?
    Ms. Muoio. Just to sort of add to that, I think we have to 
be rethinking our whole transportation system, and roads and 
cars and be working on mass transit and alternative ways to get 
people around other than building another road.
    So a question I have as a local leader, we are charged 
locally with building codes and establishing building codes. 
What would you advise us to do in terms of our building codes 
to be more resilient to sea-level rise? What kinds of things 
should we be including in our building codes moving forward?
    We can start with Dr. Kirtman.
    Dr. Kirtman. So, first of all, I think all building codes 
should include all the possible scenarios of sea-level rise 
over the lifetime of the building. So that should be a 
requirement. We should be thinking about how does a building 
recover from tidal flooding and storm surge flooding.
    So I think we have to think that there is going to be time 
when the ground floor, whether that be parking or what, is 
going to be flooded. And how rapidly are you going to recover?
    So I think we have to think that our buildings are going to 
have a certain amount of flooding that is going to happen, but 
how quickly can you recover? I think that is how we have to 
think about our building codes, is think about rapid recovery 
from anticipated events.
    Ms. Muoio. Dr. Berry?
    Dr. Berry. Already, in Miami-Dade, a number of hospitals 
have taken electrical equipment and raised it. I think that is 
for houses too. I think we have to look at the potential fire 
hazards and potential electrical hazards and make sure those 
are out of a reasonable flood zone.
    So that is not a usual building code, but that is one I 
think ought to be implemented.
    Mr. Hedde. I would identify three areas.
    I think from the local community standpoint, it starts with 
a planned use plan and keeping structures out of harm's way. 
That is one of the easiest things.
    As I have worked on building code issues, I have been 
appalled at the lack of strength in some communities' building 
codes. Luckily, in Florida, they are fairly strong.
    So the second piece I would agree would be the elevation of 
the structure, make sure the structure is elevated.
    I think the last piece that people forget is that we need 
to build foundation systems that are strong enough to withstand 
storm surge. A lot of these things are not strong enough. So in 
spite of being elevated, they do not withstand the storm surge.
    Dr. Jurado. I think that the responses thus far have been 
quite substantial. I appreciate the need to elevate structures 
and have some uniformity. Consistently, we hear about the 
importance of having consistency across our codes, making sure 
that whatever we do in the build environment will be consistent 
with transportation and drainage systems, since everything is 
interconnected.
    But independent of the resiliency of flood protection, 
focus I think on the challenge in Florida, which is the 
inability to dictate really on how to treat energy within the 
build environment. There are substantial limitations about 
requirements for renewable energy many local governments, for 
example, might want to see advance.
    So some flexibility with regards to energy code at the 
State level would be useful.
    Ms. Muoio. Very good. Thank you so much for your comments. 
I appreciate it.
    Senator Nelson. Madam Mayor?
    Ms. Burdick. Thank you.
    We have talked a lot about what we can do to mitigate the 
impacts of climate change. And I thought I heard, Dr. Berry, 
that there is nothing that we can do to mitigate those in the 
near future?
    We talk about carbon and carbon tax. We talk about trying 
to reduce the problems of climate change. We hoped that we were 
going to get cutbacks on coal, and it looks like some of that 
is changing.
    So what are some of the preventive things that we should be 
doing locally, nationally, and globally, to reduce climate 
change? And how do we best educate our public?
    Dr. Berry. For Florida, I am not a pessimist, but I am a 
realist, in the sense that we should mitigate what we can. We 
should have clean energy, and we should be efficient. But the 
rest of the world is imposing its will on us at least for the 
next 20, 30, 40 years in that the emissions that we are already 
on our way to creating or are already there are going to result 
in sea-level rise. If we stop everything now, there still will 
be sea-level rise. We are not going to stop everything now. It 
is too complicated.
    So sea level and emissions are going to go on in the best 
world, in my opinion, for 20 or 30 years. Therefore, given 
where we are, we have to mitigate the impact of the global sea-
level rise.
    At the same time, we ought to be moving to new forms of 
energy. We ought to be moving, as the mayor says, to thinking 
through not just electric cars but ways of transportation. We 
started. We have local communities that are very advanced in 
that.
    Changing our ways of life individually is something that I 
do not do very well but some people do in terms of where we go, 
what we transport, how we manage driving a single car or 
driving with four people. There are lots of small things that 
we ought to do. But we also ought to be realistic and say the 
big picture for South Florida is not going to change until we 
better understand how we can manage it and take advantage of 
it.
    What I say in my written testimony is that we have the 
opportunity, as Commissioner Abraham said in another interview, 
of creating innovation technology in dealing with flooding, in 
dealing with structure that I have talked about.
    So we can turn a problem into an opportunity here in South 
Florida. We are the bad example, if you like. Bad, but we can 
turn it into something good. It is a lesson, like the Dutch. 
The Dutch are exporters of technology to deal with floods.
    We could create our own patterns of technology, our own 
social responses, and, therefore, be exporters of good things 
to the rest of the coastal areas of the country that are going 
to have the same problems that we are having maybe 5, 10 years 
down the road.
    Ms. Burdick. It makes that collaboration piece with the 
South Florida regional climate compact all the more important 
so that we can all work together to find these innovative 
solutions and implement them.
    Thank you.
    Senator Nelson. And the big difference between the 
Netherlands and Florida is that we sit on top of a honeycomb of 
all kinds of materials that are decayed from seashells and 
critters over millions of years, and that honeycomb of 
limestone is filled with water. Thus, saltwater intrusion, 
because saltwater is heavier than freshwater. As the saltwater 
rises, it comes inland, and it invades our honeycomb.
    You, Dr. Jurado, have had a number of your wellfields in 
Broward County invaded. You have closed two in the county. 
Hallandale Beach has relocated further to the west six. 
Deerfield Beach has abandoned eight.
    So what in the world?
    Dr. Jurado. The issue of saltwater intrusion is incredibly 
problematic. Working with the USGS, we have seen that sea-level 
rise has accelerated the land movement of the front by about a 
factor of two. We, as I indicated, expect to lose about 40 
percent of coastal wellfield capacity in the future sea-level 
rise, and that is sea-level rise, because we are actually 
precluded, the regional policy for taking more from the 
Biscayne aquifer, and thus we have an offset. So this was 
really driven by sea-level rise.
    And so that will require substantial relocation of wells to 
the west. We are also working with Palm Beach County, however, 
and a diverse number of stakeholders on a regional reservoir. 
And that is the other thing that we need in our region is more 
storage, because we simply lack the land for long-term water 
storage. Even though we receive rainfall of 20 inches at a 
time, we are trying to find a place to put it.
    But storage in the system when we are trying to manage 
saltwater intrusion in extreme drought is going to be really 
critical, and it is another piece of infrastructure funding. We 
are pursuing funds to the tune of $160 million for Phase 1 of 
the C-51 reservoir, which could provide water supply and 
environmental benefits for Palm Beach, Broward, and Miami-Dade 
counties--full-scale, a $460 million reservoir providing up to 
150 million gallons per day and water supply for the region.
    So investments in alternative water supplies such as storm 
water reuse and reclaimed water coupled with conservation will 
be an absolute necessity.
    Senator Nelson. And, Congressman, this fits hand-in-glove 
with our Everglades restoration efforts, moving that water 
south and increasingly getting it cleansed as it is coming 
south, ultimately into Everglades Park into Florida Bay as well 
as the Shark River Slough.
    How do these municipalities monitor the aquifer to 
determine whether the freshwater has been contaminated?
    Dr. Jurado. We have an extensive groundwater monitoring 
network with wells that are maintained by the South Florida 
Water Management District, by the individual water utilities, 
by Broward County, and by the USGS. So this saltwater network 
is monitored monthly. We have more than 50 years of data the 
state has now used to help develop models that are informing 
our decisions today.
    So it is a vast network, one that we are actually 
upgrading. Just now we have been holding regional workshops. 
Since the saltwater front has moved beyond many of the wells 
that were previously used to measure the advancement of the 
front, they are already salty, so we are having to recalibrate 
that network for the current condition. But it is aggressively 
monitored and wellfields managed in accordance with these water 
shortages and predictive losses.
    Senator Nelson. And moving those wells further west 
ultimately ends up with the customer paying more because of the 
added expense.
    Dr. Jurado. That is correct. Moving the wellfields will 
cost something. We also have to recognize that we have water 
treatment facilities that are associated with individual 
wellfields. And if we have to move the wellfields outside of 
the regional water treatment facilities, then you are 
potentially looking at new water treatment facilities as well.
    The other thing though is, if we have to move to reclaimed 
water or brackish water sources as an alternative water supply, 
those require more in the way of treatment to produce potable 
water and much higher energy costs. So the reservoir option is 
highly attractive because it is freshwater. It does not require 
a higher level of treatment, such as the removal of salt.
    So storm water reuse coupled with conservation are really 
the most attractive strategies.
    Senator Nelson. Dr. Kirtman and Dr. Berry, you know I 
mentioned at the outset the attempts to try to cut the budgets 
of anything that measures climate change. This is all the way 
from programs existing in NOAA and NASA to future satellites 
that would have all of these very intricate measurements.
    Now, to what extent does your work rely on climate-
observing platforms like those satellites?
    Dr. Kirtman. A great deal of my work relies on observing 
networks.
    So one of the projects we have at the University of Miami 
is to make forecasts based on decades. And how do you make 
those forecasts? You need to have some way of saying what the 
state of the climate system is today in order to project it 
into the future. That information, that state of the climate 
system today, comes from our observing networks, our satellite 
platforms, our ocean buoy systems, our drifter buoy systems, 
our radio sound data.
    If we stop collecting data, that is truly putting your head 
in the sand. Just because you stop collecting data does not 
mean the climate change problem is not continuing to progress.
    So first and foremost, you need to monitor the health of 
the climate system. That is first and foremost. We have to put 
a red line in the sand in stopping any attempt to remove the 
collection of data. This is critical.
    Senator Nelson. Just to put a point to this and to 
underline it, I want, Dr. Kirtman, if you will, just shortly 
describe how a lot of this data that you are talking about for 
climate change also goes into our computers to help us with the 
direction and the velocity and the intensity of hurricanes.
    Dr. Kirtman. Exactly. That is a wonderful question, 
Senator.
    It is exactly the same kind of data that we use to make 
better forecasts for extreme rainfall, better forecasts for 
hurricanes. All of that data is the data of the climate system. 
We do not make a distinction when we observe the atmosphere of 
the ocean, the land surface. We do not make a distinction 
whether it is climate change data or whether it is just weather 
data. It is data.
    If we throw away that data on the state of the ocean 
because we worry about it revealing some climate change, we are 
throwing away our opportunity to improve our forecasts for the 
intensity of hurricanes, our ability to predict storm surge.
    I cannot say enough how much of a threat this is to lives 
and property and economic opportunity and national security. 
This is day-to-day weather, not only climate change. It is of 
paramount importance.
    Senator Nelson. Dr. Berry, did you want to add to that?
    Dr. Berry. I am as passionate as he is with this. It is not 
just for science. Communities that are dealing with current 
problems need to have information. Miami Beach cannot put the 
pumps in there and just guess that sea-level rise or that king 
tides are a certain height or sea-level rise is going to be 
something. We need information. Companies need information. 
Engineering work needs that same information.
    The company I work with at the household level is using 
LIDAR data based on NOAA. We are using tide data. We are using 
all kinds of data that come out of the Federal Government.
    This government, I mean, I was born in England, and one of 
the things that I recognized many decades ago is that 
information is treated differently in different parts of the 
world. We have a tradition going back dozens, hundreds of years 
of saying the data comes from taxpayers and it goes back to 
taxpayers. It is open.
    And I was so impressed with the USGS at one time putting 
data out on streamflow. And who used it? Trout fishermen, OK? 
And that is great.
    And so I cannot emphasize how important it is not just for 
science but for everybody.
    Senator Nelson. And that is so true in Florida not only for 
commercial fishermen but for recreational fishermen as well.
    Now, Mr. Hedde, your industry, the reinsurance industry, so 
you are insuring against catastrophe, you really rely on this 
data, don't you, to make your calculations?
    Mr. Hedde. Yes. So I asked if I could comment because we 
definitely rely on this information.
    That is a surprise to some who really do not understand our 
industry, where we rely on this information to value risk.
    When you value risk, if you add uncertainty into the value, 
that impacts the valuation, usually on the higher side of the 
price. So that is one way.
    A lot of our transactions, especially in the reinsurance 
industry, are based on triggers that are based on NOAA data 
that's supplied. So I made a point in my testimony today to say 
that we rely on NOAA information.
    Senator Nelson. All right. Just so that you will know how 
we are getting all the more accurate, you have heard of the 
Hurricane Hunters. They fly into the hurricane. They are 
usually in the range of 15,000 to 30,000 feet.
    They are taking data real-time from their instruments. They 
are dropping an instrumented package about that long. It has a 
little parachute on it, and it goes all the way down to the 
ocean. It sends back real-time data to the airplane, which is 
sent immediately by satellite to the National Hurricane Center.
    At the same time flying over the top of the hurricane is 
the G-IV. We had it down one time during a hurricane, so I 
think we are able to get another one. We just got it in the 
NOAA bill. And it is doing the same thing, from 45,000 feet, 
dropping an instrument. Here is the latest gizmo, and the P-3 
that goes into the storm.
    Now they are putting out through a hole that big an 
instrumented package that comes out and, all of a sudden, it 
sprouts wings and a motor fires up. And now you have a UAV 
inside the hurricane that can fly actually in and stay in the 
hurricane eyewall giving us more measurements.
    And they are thinking that we might get an accuracy as a 
result of that from 10 to 15 percentage points even more 
accurate in our data.
    Now, Dr. Jurado, so the people that are trying to muzzle 
scientists--it is happening. I have seen it in Washington. I 
have seen it here in the state of Florida Government.
    Could you do your job effectively if you could not use 
certain scientific terms?
    Dr. Jurado. I cannot imagine planning for the future 
conditions of the community and making informed policy planning 
investment decisions without recognizing the reality of what 
the driving factors are. And in our region, climate change and 
sea-level rise are the primary influences for which we need to 
be organizing policy planning investments for decades to come. 
I cannot imagine those being informed or fruitful investments 
if they were not based upon credible use of scientific data and 
in large part on contemplation of the impacts of climate change 
on our environment.
    Senator Nelson. And, Mr. Hedde, what would happen in your 
industry if you, as a consumer, a homeowner, could not get 
accurate climate data and climate change on which to make your 
decisions on what your purchases are?
    Mr. Hedde. We have seen a change in our industry over the 
last 5 years.
    About 5 years ago, our clients would ask us to come and 
talk about climate change at the board level but tell us 
specifically not to use ``climate change'' in our words. Over 
the last couple years, we still come back and talk about 
climate change, but they are allowing us to use ``climate 
change.''
    It comes back to my point before. We use the data to 
accurately assess risk. And insurance plays such an important 
part in our economy, if we are not properly able to assess the 
risk, it is a drag on the economy.
    So it makes our answers better. It makes our product 
better. It makes our response to events better.
    Senator Nelson. And would you believe that I have even had 
to file a Scientific Integrity Act to define common scientific 
values free from political interference?
    Mr. Hedde. It does not surprise me.
    Senator Nelson. It has come to that, as well as to try to 
keep from the intimidation and censorship that we see.
    Congressman, do you have another question?
    Mr. Deutch. Thank you, Senator.
    I just want to follow up on your important question about 
terminology and what is actually happening.
    I think it is fair to say, and the witnesses can correct me 
if I am wrong, and, Mr. Hedde, I think you just alluded to 
this, that every major company in the United States and likely 
in the world devotes some core part of its time and resources 
to addressing the issues that we will be grappling with as a 
result of climate change, whether it is supply chain 
disruptions, issues driving sustainability, the severity of 
storms.
    So the business community understands that we have to be 
tackling this, and they do it in a thoughtful and responsible 
way. And I am sure the same is true for Senator Nelson for 
meetings I have had in my office with corporate leaders from 
some of the largest corporations, including energy companies 
who understand that we have to start to anticipate the impact 
this is having, address it, and even recognize that carbon has 
a cost in doing business.
    So the business community gets it.
    Local government, again, Dr. Jurado, as a professional, not 
a politician, local governments run by Democratic and 
Republican administrations who are grappling with sea-level 
rise firsthand and the impact firsthand, and the issues of 
climate change firsthand, are having responsible discussions 
about how to address it, because as Dr. Kirtman points out, 
when we have multiple lines of evidence making it clear that 
human activity makes a dramatic impact on climate change, then 
we all have to be examining it.
    Why is it--I am not sure that anybody can answer this. 
Perhaps it is a rhetorical question. But why is it that when 
the business community understands what is at stake for the 
future of our economy and our country, and our local 
governments understand what is at stake, why is it that there 
are some in important roles in our government who continue to, 
as, Dr. Kirtman, I think as you put it, continue to put their 
hand in the sand? And, by the way, in Florida, that sand is the 
coastline and the water is getting closer.
    [Laughter.]
    Mr. Deutch. So why is it that there is this ongoing denial 
that we see in some very narrow segments of our government?
    I am not sure, Senator, if anyone wishes to answer that.
    [Laughter.]
    Mr. Deutch. But I suppose I would ask another way.
    You would agree that, given your eloquent testimony and the 
work that every one of you does every day in this area, that it 
is difficult if not impossible to accept the fact that there 
are those in important positions of power who will continue to 
deny the necessity of taking on these issues that every one of 
you has devoted your life to?
    Four nods across the table.
    Senator Nelson. I am going to ask the Congressman's 
question in another way.
    First of all, one of you testified about, particularly 
after Hurricane Andrew, the changing building standards.
    That is something I will never forget, flying in a National 
Guard helicopter over ground zero the day after Hurricane 
Andrew. There were two buildings that were left standing. One 
was the bank building, and the other one was an old Florida 
cracker house that had been built in the 1920s to withstand 
wind. Everything else was leveled.
    Indeed, as a result of that rather traumatic experience in 
1992, we have really, to the credit of the local communities 
and their governments, brought up building standards.
    So, certainly, that means a lot to you, Mr. Hedde. But it 
also means a lot to folks like this from local government that 
you do have predisaster mitigation grants and community rating 
systems to reduce the risk. And that means that you need those 
FEMA programs.
    And remember what I said? They were reducing FEMA 11 
percent in the budget for these kind of programs? What would 
that do to you in Broward County, Dr. Jurado?
    Dr. Jurado. Broward County and many of the local 
communities in our state are very active participants in CRS. 
The CRS program has served as a critical incentive for really 
robust flood mitigation strategies that reduce our reliance on 
FEMA because we have built-in protections in the way we develop 
and design the community.
    The savings are, I don't know, in the tens and hundreds of 
millions of dollars in terms of the policy reductions that are 
delivered to residents in the community. We are strong 
supporters of the CRS and the type of robust standards that 
have elevated all of our flood protection measures by helping 
deliver resources to communities.
    And with FEMA being $30 billion, $20 billion in the 
negative, we can no longer afford to expose ourselves to flood 
risks, and we need programs that help all of our communities 
build resilience and do it cost-effectively. The cost of 
insurance has to be something we keep our eye on.
    Senator Nelson. Mayors, I have one more question. Do you 
have any questions?
    Ms. Muoio. Thank you so much for being here.
    Senator Nelson. Absolutely. Thank you, Madam Mayor.
    All right, Mr. Hedde, you mentioned that there was over $40 
billion in economic loss due to storm events just last year in 
2016, and you said that about half of that was insured losses. 
So that means the remaining half was not insured, so that was 
going to have to be paid by somebody.
    So given the modeling scenarios that you have seen, do you 
think those losses that are primarily being borne by the 
individuals, since they were not insured losses, will rise in 
the future, given what we are seeing?
    Mr. Hedde. That is a tough calculation. We see a pretty 
steady historical insured versus noninsured penetration within 
the U.S., so I think everything will rise most likely at that 
variable.
    What disturbs me more is the lack of penetration on flood 
insurance, where we do not see a large penetration of flood 
insurance or earthquake insurance. I think that ultimately will 
impact the banking industry, because so much of their portfolio 
is not insured upfront.
    So we are looking at solutions for increasing the 
penetration of flood insurance and participating heavily in 
NFIP program insurance this year. We developed our inland flood 
product that we are offering to people, not competing with the 
NFIP but supplementing people who do not live in coastal 
regions but are subject to inland flooding.
    So I think there are ways to address that. Ultimately, I 
look at it as we need to change behavior, both in the long term 
and the short term.
    And coming back to the question around funding, I think we 
need to make incentives available to help people change 
behavior, become more resilient, whether it is building a 
stronger house, whether it is energy efficiency. There are so 
many things that we need to have funds for to be able to take 
care of this problem.
    Senator Nelson. I want to thank everybody. We have covered 
this subject in depth. It is exactly what we wanted to do in a 
field hearing.
    Thank you, and the meeting is adjourned.
    [Applause.]
    [Whereupon, at 3:14 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Bill Nelson to 
                           Ben Kirtman, Ph.D.
    Question. Dr. Kirtman, you told us that for about 800,000 years, 
the carbon dioxide levels in the atmosphere stayed between 180 and 280 
parts per million. And in less than 150 years, we've seem an 
unprecedented rise in CO<INF>2</INF>. A few years ago, I visited the 
NOAA observatory on top of Mauna Loa, and it was a bittersweet moment. 
The CO<INF>2</INF> reading was 399. The scientists told me it was 
probably the last reading that would be below 400 parts per million. 
Today, we are at 405 parts per million.
    Dr. Kirtman, without action to curb emissions, what is the likely 
carbon concentration we will see in 10 years? And even with significant 
climate action now, will we still need to invest in adaptation to make 
coastal communities more resilient?
    Answer. Given the current trajectory, I would expect CO<INF>2</INF> 
levels to go from 405 ppmv today to about 450 ppmv ten years from 
today.
    Even if we were somehow about to reduce CO<INF>2</INF> levels to 
say 370 ppmv (the concentration from 2000) today we would still be 
committed to significant warming for the next 25 years. This is the 
climate change commitment that is already ``baked-into'' the system. 
Essentially, adaptation will always be a 25-year or so time horizon 
challenge as long as greenhouse gases in the atmosphere continue to 
rise.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                      Leonard ``Len'' Berry, Ph.D.
    Question. Dr. Berry, your testimony included a letter to the 
President signed by several Florida scientists that notes three 
important climate change considerations: the need for continued Federal 
earth science research, the importance of scientific integrity, and 
federally important coastal properties at risk.
    The letter specifically mentioned the Kennedy Space Center and Cape 
Canaveral. Can you describe how sea level rise may threaten our space 
launch capabilities?
    Answer. In highlighting the vulnerability of many military 
facilities to sea level rise, we, as scientists, are stating the 
obvious.
    Air Force bases, Naval bases, and many Army bases are located in 
coastal areas, and in the search for flat, available land, many are on 
the coast at low levels above the high tide mark. In a world where sea 
levels had remained relatively stable for hundreds of years, this made 
sound sense, particularly as aircraft and rockets could take off across 
the ocean.
    In the world of today, where sea levels have already risen at least 
nine inches, and are on an accelerating course, with anticipated rises 
of up to two feet in the next thirty years, and more than double that 
by the end of the century, those coastal locations can present tough 
problems.
    Higher sea levels provide a higher base level for storm surge and 
also high ground water tables which can compromise infrastructure. 
Bases in Florida provide plenty of examples. Patrick (near Cocoa), 
McDill (near Tampa) and Elgin (in the Panhandle) Air Force Bases all 
have areas close to sea level. McDill has a mean height of about five 
feet, easily vulnerable to storm surge now and in the future. Patrick 
AFB and Elgin AFB are higher but have significant areas of 
vulnerability.
    But the most threatened facilities are at Cape Canaveral, where a 
recent report has said ``rising sea levels are the single biggest 
threat to the facility with over two thirds of constructed 
infrastructure and more of the land area are below sixteen feet and 
vulnerable to storm surge as sea levels rise.'' (Source: https://
www.giss.nasa
.gov/research/features/201508_risingseas/)
    It is important to note two things. First, the bad news is that 
projections of the rate and amount of sea level rise are growing 
steadily, as we have more information and understanding of the 
processes involved. The second is better news, that with ongoing basic 
research and analysis, we can be continually better informed and able 
to adapt and protect these vital facilities.
    As many have said, adaption needs to start now based on the best 
available science and the best ongoing collection of vital data. The 
very facilities under risk are those needed to preserve our information 
flow and our ability to guide our future.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Carl G. Hedde
    Question 1. Mr. Hedde, you noted that most of our homes and 
businesses aren't built to withstand the severe weather we currently 
experience from time to time, much less more extreme events in a 
changing climate. Is this true for hospitals and schools too?
    Answer. It is not possible to make a blanket statement regarding 
the construction quality of our Nation's schools and hospitals. 
Engineers are required to incorporate safety features based on a 
building's primary or intended function. For example, ASCE 24-14 is the 
industry consensus standard for flood resistant design and 
construction, and uses four building categories to guide engineers on 
flood design specifications: the first is for accessory buildings 
(e.g., garages), the second is for residential homes and general 
commercial buildings, the third is for large gathering places, and the 
forth is for essential service facilities, such as hospitals and fire 
stations. In ASCE 24-14 elementary schools are considered a class three 
building, unless they also serve as a designated emergency shelter, in 
which case they are considered a class four. The higher the class, the 
more the building must be elevated and flood-proofed. Similarly, 
seismic loads and design requirements are more robust for schools and 
hospitals. Wind loads are typically increased for schools and hospitals 
either through an importance factor in older versions of codes and 
standards, or through maps with higher design wind speeds in more 
recent building codes and standards. While ASCE 24-14 and other wind 
and seismic standards have been around for decades, not all buildings 
were historically built to code, while others may have been constructed 
after a code was put into place, but lax enforcement allowed the 
building to be under-constructed. We have seen numerous examples of 
Hurricanes and Tornadoes causing severe damage to schools and 
hospitals. As a nation, it is important that infrastructure such as 
schools and hospitals be constructed based on forward looking 
conditions that might be experienced in the future.

    Question 2.This August will mark 25 years since Hurricane Andrew 
devastated Homestead, Florida. If Hurricane Andrew were to happen in 
2017, given our current building codes and coastal development 
patterns, what would the loss be like?
    Answer. Hurricane Andrew was a strong wake up call for the need for 
stronger building codes and practices. More than half of the U.S. 
population lives in one of the Nation's 673 coastal counties, and 
values of properties in these coastal regions have increased since 
Hurricane Andrew. If a storm similar to Hurricane Andrew would happen 
in 2017, the resulting damage would be heavily dependent on where the 
storm occurs. While building codes have improved during the years since 
Hurricane Andrew, building code application and enforcement varies by 
state, and further varies by local community within states. Since 
Hurricane Andrew, building codes in Florida have been greatly improved, 
and we would expect better building performance for buildings build in 
Florida's coastal regions since the post Hurricane Andrew building 
codes were implemented. Unfortunately, the same strengthening has not 
occurred in all coastal regions along our Nation's coast. Organizations 
such as IBHS (Insurance Institute for Building and Home Safety) have 
conducted extensive research on building performance, with the ultimate 
goal to improve building practices and products, and better inform the 
development of stronger building codes.

    Question 3. This August will mark 25 years since Hurricane Andrew 
devastated Homestead, Florida. Are there resources available to 
homeowners who want to strengthen their homes, and have we supported 
those efforts sufficiently at the Federal level?
    Answer. A number of insurers and reinsurers writing insurance in 
the United States have formed and financially support a non-profit 
organization dedicated to researching and communicating effective 
measures that can be taken to reduce loss to human life, homes, and 
businesses from natural disasters. IBHS (Insurance Institute for 
Business and Home Safety) conducts critical research that will improve 
building practices, building materials and building codes. Insurers 
continue to new find ways to communicate with policy holders on ways to 
protect and strengthen their homes and businesses. Munich Re has 
developed The FORTIFIED Home<SUP>TM </SUP>On the Go Tablet App. The app 
has been designed for an iPad, is an interactive tool for homeowners, 
contractors and architects to use when building or retrofitting a 
single-family home to make it a more fortified structure. It includes 
information about the Insurance Institute for Business & Home Safety 
(IBHS) FORTIFIED Home<SUP>TM </SUP>program which is designed to 
strengthen homes. The ``app'' is a ``free'' app available on the iTunes 
app store. We would ask that all Congressional offices make the ``app'' 
available to their constituents.
    The Federal Government is exploring several new programs to help 
prioritize risk mitigation spending over disaster response. The FEMA 
Disaster Deductible is a good example of risk sharing and incentivizing 
mitigation. FEMA is financially supporting a new study to update the 
often stated statistic that every dollar spent on mitigation saves $4 
is disaster recovery. The study will be completed by the National 
Institute for Building Science (NIBS). We feel that the study should be 
fully funded by Congressional appropriators.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                         Dr. Jennifer L. Jurado
    Question. Dr. Jurado, you mentioned that a recent estimate done in 
partnership with the Corps of Engineers suggested that for Broward 
County to execute a plan for resilient seawalls would cost anywhere 
from $1 billion to $4 billion--and that failing to act would be far 
more costly. How can counties like yours even begin to finance such 
massive capital improvements?
    Answer. Just to clarify, Broward County is in the midst of a study 
with the Corps of Engineers to develop recommended sea wall top 
elevations needed to deliver flood protection with rising seas. The 
study will formally evaluate the flood protection level of service 
derived with a 2.5 foot increase in sea wall height. Concurrently, 
Broward County is developing cost estimates for collective raising/
armoring of the 350 miles of canal banks and waterways along our 
shoreline. The final figure will depend on the initial condition of the 
seawall and the construction approach, but we estimate the cost to be 
between $1 billion and $4 billion. This infrastructure upgrade will 
need to be coupled with additional stormwater improvements and 
resilient investments as part of development practices, efforts which 
are already underway.
    Regarding the question of financing, local communities simply can't 
do this alone. The scale of investment needed far exceeds the resources 
and bonding capacity of individual communities, while the timeline for 
execution is urgent. A Federal partnership is essential, as has been 
the case in advancing many of the most sizeable infrastructure projects 
and investments in our nation--investments which have served to connect 
and protect our communities as they exist today, including ports, 
bridges, roadways, waterways, regional flood control systems, and 
reservoirs. These investments provided a foundation for communities, 
including our coastal communities, to develop and thrive. However, many 
coastal communities are now exposed to new pressures and excessive, 
unforeseen infrastructure needs, which threaten to overwhelm our 
capabilities. Local sources alone won't be sufficient, given the costs 
and timeframes involved. We are not punting responsibility; however, we 
recognize that diverse funding sources and alternative funding streams 
will need to be pursued. Therefore, we desperately need the support of 
the Federal Government, and of our Federal agency partners, including 
the Corps of Engineers, to undertake the large-scale flood protection 
investments our region needs. These infrastructure upgrades are vital 
to protect against catastrophic flood damage, service disruptions, and 
threats to public safety. They will deliver a sizeable return on 
investment, ensuring long-term economic well-being of national 
consequence, while substantially reducing the potential for costly 
Federal post-disaster assistance often required in the aftermath of 
severe floods and storms. Absent organized investments to address our 
risks, these events will only increase in severity and consequence.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
